<html>
<title> - IMPLEMENTING U.S. POLICY IN THE ARCTIC</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                 IMPLEMENTING U.S. POLICY IN THE ARCTIC

=======================================================================

                                (113-78)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                COAST GUARD AND MARITIME TRANSPORTATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 23, 2014

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation




                  U.S. GOVERNMENT PRINTING OFFICE
88-818                    WASHINGTON : 2015
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman
DON YOUNG, Alaska                    NICK J. RAHALL, II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         ELEANOR HOLMES NORTON, District of 
JOHN J. DUNCAN, Jr., Tennessee,          Columbia
  Vice Chair                         JERROLD NADLER, New York
JOHN L. MICA, Florida                CORRINE BROWN, Florida
FRANK A. LoBIONDO, New Jersey        EDDIE BERNICE JOHNSON, Texas
GARY G. MILLER, California           ELIJAH E. CUMMINGS, Maryland
SAM GRAVES, Missouri                 RICK LARSEN, Washington
SHELLEY MOORE CAPITO, West Virginia  MICHAEL E. CAPUANO, Massachusetts
CANDICE S. MILLER, Michigan          TIMOTHY H. BISHOP, New York
DUNCAN HUNTER, California            MICHAEL H. MICHAUD, Maine
ERIC A. ``RICK'' CRAWFORD, Arkansas  GRACE F. NAPOLITANO, California
LOU BARLETTA, Pennsylvania           DANIEL LIPINSKI, Illinois
BLAKE FARENTHOLD, Texas              TIMOTHY J. WALZ, Minnesota
LARRY BUCSHON, Indiana               STEVE COHEN, Tennessee
BOB GIBBS, Ohio                      ALBIO SIRES, New Jersey
PATRICK MEEHAN, Pennsylvania         DONNA F. EDWARDS, Maryland
RICHARD L. HANNA, New York           JOHN GARAMENDI, California
DANIEL WEBSTER, Florida              ANDREE CARSON, Indiana
STEVE SOUTHERLAND, II, Florida       JANICE HAHN, California
JEFF DENHAM, California              RICHARD M. NOLAN, Minnesota
REID J. RIBBLE, Wisconsin            ANN KIRKPATRICK, Arizona
THOMAS MASSIE, Kentucky              DINA TITUS, Nevada
STEVE DAINES, Montana                SEAN PATRICK MALONEY, New York
TOM RICE, South Carolina             ELIZABETH H. ESTY, Connecticut
MARKWAYNE MULLIN, Oklahoma           LOIS FRANKEL, Florida
ROGER WILLIAMS, Texas                CHERI BUSTOS, Illinois
MARK MEADOWS, North Carolina
SCOTT PERRY, Pennsylvania
RODNEY DAVIS, Illinois
MARK SANFORD, South Carolina
DAVID W. JOLLY, Florida
                                ------                                7

        Subcommittee on Coast Guard and Maritime Transportation

                  DUNCAN HUNTER, California, Chairman
DON YOUNG, Alaska                    JOHN GARAMENDI, California
HOWARD COBLE, North Carolina         ELIJAH E. CUMMINGS, Maryland
FRANK A. LoBIONDO, New Jersey        RICK LARSEN, Washington
PATRICK MEEHAN, Pennsylvania         TIMOTHY H. BISHOP, New York
STEVE SOUTHERLAND, II, Florida,      LOIS FRANKEL, Florida
  Vice Chair                         CORRINE BROWN, Florida
TOM RICE, South Carolina             JANICE HAHN, California
MARK SANFORD, South Carolina         NICK J. RAHALL, II, West Virginia
DAVID W. JOLLY, Florida                (Ex Officio)
BILL SHUSTER, Pennsylvania (Ex 
    Officio)
                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................     v

                               TESTIMONY
                                Panel 1

Vice Admiral Peter V. Neffenger, Vice Commandant, U.S. Coast 
  Guard..........................................................     3
Rear Admiral Jonathan W. White, Oceanographer and Navigator of 
  the Navy, and Director, Space and Maritime Domain Awareness, 
  U.S. Navy......................................................     3
Ambassador David A. Balton, Deputy Assistant Secretary for Oceans 
  and Fisheries, Bureau of Oceans and International Environmental 
  and Scientific Affairs, Department of State....................     3

                                Panel 2

Captain David Westerholm, USCG, Retired, and Director, Office of 
  Response and Restoration, National Oceanic and Atmospheric 
  Administration.................................................    27
Kelly Kenison Falkner, Ph.D., Division Director, Division of 
  Polar Programs, National Science Foundation....................    27
Edmund Fogels, Deputy Commissioner, Department of Natural 
  Resources, State of Alaska.....................................    27

 PREPARED STATEMENTS AND ANSWERS TO QUESTIONS FOR THE RECORD SUBMITTED 
                              BY WITNESSES

Vice Admiral Peter V. Neffenger:

    Prepared statement...........................................    41
    Answers to questions for the record issued by the following 
      Representatives:

        Hon. Duncan Hunter, of California........................    46
        Hon. John Garamendi, of California.......................    57
        Hon. Rick Larsen, of Washington..........................    61
Rear Admiral Jonathan W. White:

    Prepared statement...........................................    62
    Answers to questions for the record issued by the following 
      Representatives:

        Hon. Duncan Hunter, of California........................    66
        Hon. Rick Larsen, of Washington..........................    68
        Hon. John Garamendi, of California.......................    68
Ambassador David A. Balton:

    Prepared statement...........................................    73
    Answers to questions for the record issued by the following 
      Representatives:

        Hon. Duncan Hunter, of California........................    81
        Hon. John Garamendi, of California.......................    83
        Hon. Rick Larsen, of Washington..........................    92
Captain David Westerholm:

    Prepared statement...........................................    96
    Answers to questions for the record issued by the following 
      Representatives:

        Majority-side Representatives............................   104
        Hon. John Garamendi, of California, and Hon. Rick Larsen, 
          of Washington..........................................   108
Kelly Kenison Falkner, Ph.D.:

    Prepared statement...........................................   111
    Answers to questions for the record issued by the following 
      Representatives:

        Hon. Duncan Hunter, of California........................   119
        Hon. John Garamendi, of California, and Hon. Rick Larsen, 
          of Washington..........................................   121
Edmund Fogels, prepared statement................................   124

                       SUBMISSIONS FOR THE RECORD

Vice Admiral Peter V. Neffenger, Vice Commandant, U.S. Coast 
  Guard, inserts for the record regarding:

    The number of Northern Sea Route transits in 2013............    12
    Request from Hon. Rick Larsen of Washington to clarify the 
      dollar amount to preserve and drydock the Polar Sea........    14
    Request from Hon. Don Young of Alaska for the Coast Guard's 
      perspective on leasing polar icebreakers...................    18
    Request from Hon. Rick Larsen of Washington for information 
      about the Coast Guard's Arctic policy......................    24


[GRAPHIC] [TIFF OMITTED] 

                 IMPLEMENTING U.S. POLICY IN THE ARCTIC

                              ----------                              


                        WEDNESDAY, JULY 23, 2014

                  House of Representatives,
          Subcommittee on Coast Guard and Maritime 
                                    Transportation,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:04 a.m. in 
Room 2253, Rayburn House Office Building, Hon. Duncan Hunter 
(Chairman of the subcommittee) presiding.
    Mr. Hunter. Good morning. The subcommittee will come to 
order. Sorry about the room size, small. There are more of us. 
Anybody who wants to can sit on the front row.
    [Laughter.]
    Mr. Hunter. The subcommittee is meeting this morning to 
review how the agencies that will play the largest roles in the 
Arctic intend to implement the National Strategy for the Arctic 
Region, as well as enhance their presence, understanding, and 
mission effectiveness in the area.
    As we all know, the ice caps are shrinking in the Arctic, 
effectively creating new coastline and navigable waters. This 
opening is already providing significant economic opportunities 
for the energy and maritime transportation sectors. However, as 
human presence increases and as other nations continue to make 
claims in the Arctic, it has also exposed a new set of risks 
and challenges to our sovereignty and national security.
    The national strategy calls for a strong U.S presence in 
the Arctic, but the Implementation Plan that accompanies it 
fails to identify what specific infrastructure or capabilities 
are required to meet those goals, or how or when they will be 
funded. For instance, there is no discussion of requirements 
for icebreakers, but each of the agencies here today requires 
one to carry out its missions in the Arctic.
    While Russia maintains a fleet of nearly 40 icebreakers, 
and China, a non-Arctic nation, is building new icebreakers, 
the U.S. fleet of heavy icebreakers is in a dismal state. I 
wouldn't even call it a fleet, frankly. One has been rusting 
away in Seattle for 3 years with a busted engine, while the 
Coast Guard fails to make a decision about its future. The 
other is operational, thanks to an infusion of $60 million from 
Congress, but that only gets it 7 years longer.
    The Coast Guard has been working with 10 other Federal 
agencies to develop requirements for a new polar icebreaker, 
but has yet to identify where in its acquisition budget it will 
find the $1.2 billion to construct it. I share the concerns 
raised by Admiral Papp at our budget hearing in March, that 
forcing the Coast Guard to pay for a new icebreaker will 
significantly delay the acquisition of other new assets that 
the Service critically needs. And I agree with him that the 
cost should be shared across all agencies that have 
requirements for an icebreaker. I look forward to hearing from 
our witnesses on whether they plan on contributing money, as 
opposed to just missions and requirements, to this whole-of-
Government effort.
    I am also interested in hearing the status of negotiations 
on the Polar Code. As vessel traffic increases, the 
implementation of the Polar Code should go a long way toward 
ensuring the safety of maritime transportation and protection 
of the Arctic environment. Establishing vessel construction and 
operating standards upfront will create a predictable operating 
environment for industry.
    Finally, the United States is set to take the chairmanship 
of the Arctic Council next year. I applaud, obviously, the 
recent appointment of Admiral Papp as the Nation's first 
Special Representative for the Arctic. I am interested in 
hearing more about what role Admiral Papp will play in the 
chairmanship, as well as the agenda that the State Department 
intends to put forward.
    We need to be protecting our national interests in the 
Arctic. I hope today's hearing will draw light on how the 
administration intends to accomplish that.
    I thank the witnesses for appearing today, and look forward 
to their testimony. With that, I yield to Ranking Member 
Garamendi.
    Mr. Garamendi. Chairman Hunter, thank you so very much for 
scheduling this meeting. We have talked about this issue, you 
and I and our staffs, for some time. And here we are, on an 
extraordinarily important hearing.
    As distant and remote as the Arctic and Antarctic regions 
may appear to most Americans, the reality is that they are two 
regions that are especially important to this Nation, the 
Arctic ranking at the top. We are likely to become more--and 
likely to become exceedingly important in the years ahead, both 
geopolitically, as well as strategically.
    As our Nation's primary Federal maritime agency, the Coast 
Guard has played, and will continue to play, a significant role 
in Arctic policy, implementation, and enforcement, while also 
fulfilling its other mission responsibilities of search and 
rescue operations, maritime safety, scientific research, and 
environmental protection.
    But is the Coast Guard up to the challenge? What about 
other Federal agencies that have key responsibilities in the 
Arctic and the Antarctic, for that matter? Are we in Congress 
fulfilling our responsibilities to provide the Coast Guard with 
the resources it needs to be semper paratus, always prepared 
and ready for the rigors of operating in these most 
inhospitable regions?
    I am heartened that, by the administration's release of its 
2013 National Strategy for the Arctic Region, and the release 
earlier this year of the Implementation Plan for this strategy. 
These two documents provide overarching guidance and agency-
specific Arctic strategies developed by the Coast Guard, the 
Navy, NOAA, each providing greater detail for their respective 
agencies' missions and objectives.
    But I am compelled to say that I remain disappointed that 
these planning initiatives have not yet taken root in the 
administration's budget. And if you look at certain programs, 
especially the Coast Guard icebreaking missions--and here I 
echo you, Mr. Chairman--the gap between what is needed to 
effectively implement the Arctic strategy and what is requested 
and funded is huge, growing, and, frankly, doesn't work.
    Whether or not you believe in the science underlying the 
projections of warming the--of the Arctic climate, that is 
immaterial. Well, it is not. It is really central to this 
issue. The stark reality is that, with each passing year, the 
Arctic is becoming more accessible, more open, more warmer, and 
more compelling economic and security priority to the United 
States.
    Other nations have grasped this reality. We should, too. It 
is well past the time when we can afford to ignore the imminent 
challenge. Next year, when the United States assumes the chair 
of the Arctic Council for 2 years, we might finally take up 
this challenge.
    No, we are going to do that today.
    I yield back.
    Mr. Hunter. Thank the ranking member. On our first panel of 
witnesses today are Vice Admiral Peter Neffenger, Vice 
Commandant of the United States Coast Guard; Rear Admiral 
Jonathan White, Oceanographer and Navigator of the Navy--I 
didn't know that that was an actual title, it is good to go; 
and Ambassador David Balton, Deputy Assistant Secretary for 
Oceans and Fisheries at the Department of State.
    Admiral Neffenger, you are recognized for your statement.

TESTIMONY OF VICE ADMIRAL PETER V. NEFFENGER, VICE COMMANDANT, 
U.S. COAST GUARD; REAR ADMIRAL JONATHAN W. WHITE, OCEANOGRAPHER 
  AND NAVIGATOR OF THE NAVY, AND DIRECTOR, SPACE AND MARITIME 
 DOMAIN AWARENESS, U.S. NAVY; AND AMBASSADOR DAVID A. BALTON, 
DEPUTY ASSISTANT SECRETARY FOR OCEANS AND FISHERIES, BUREAU OF 
OCEANS AND INTERNATIONAL ENVIRONMENTAL AND SCIENTIFIC AFFAIRS, 
                      DEPARTMENT OF STATE

    Admiral Neffenger. Thank you, sir. Good morning, Chairman 
Hunter, Ranking Member Garamendi. I am pleased to appear before 
you today to discuss Coast Guard operations in the Arctic, the 
Coast Guard's Arctic strategy, and Coast Guard efforts to 
ensure safe, secure, and environmentally responsible maritime 
activity in this region.
    With your permission, Mr. Chairman, I have written 
testimony for the record, and I will make a brief opening 
statement.
    In my previous role as Deputy Commandant for Operations, I 
spent a significant amount of time focusing on Arctic and polar 
issues for the Coast Guard. I have traveled extensively 
throughout the Arctic and the Antarctic regions to understand 
the challenges of operating in these extreme environments, the 
range of national and international priorities and initiatives, 
and the impacts of increasing human activity.
    In the spring of 2013 I represented the United States on an 
Arctic Council trip to the Russian Far North, which included an 
overview of Arctic oil and gas exploration, infrastructure 
development, and culminated in travel to the North Pole. I also 
recently visited the Antarctic, with the National Science 
Foundation, as well as to the South Pole to observe operations 
there and our icebreaker contributions to the U.S. Antarctic 
Program.
    The primary lesson from these travels is that these regions 
are remote, they are hostile, they are unforgiving, but they 
nonetheless present the potential for substantial economic and 
scientific gains for our Nation. Operations in the polar 
regions demand detailed and deliberate planning, supported by 
specialized, reliable, and unique equipment.
    I mentioned that human activity is increasing in the 
Arctic. It is doing so because the region has become more 
accessible. There really is a new ocean opening, and Coast 
Guard authorities require our presence wherever people operate 
in U.S. waters.
    The activity we see falls into three general categories: 
resource development, primarily oil, gas, and mineral; 
opportunities for new trade routes; and ecotourism. To address 
these, the Coast Guard recently published its Arctic strategy 
to outline the Service's near-term approach to meeting the 
mission demands generated by these activities.
    Our strategy complements the National Strategy for the 
Arctic, and envisions a mobile, seasonal Coast Guard 
operational presence to meet mission demands over the next 
decade, and sets forth three key objectives: to improve 
awareness, we need a better understanding of what the 
operations are up there; to modernize governance, that has to 
do with managing the various activities that are doing so 
across international lines; and then, to broaden partnerships, 
we need to know who else has capability up there that we can 
call upon.
    We have recently completed an implementation plan for our 
strategy, and it outlines 12 initiatives in support of our 
objectives. These involve Federal, State, local, tribal, and 
international partners, and they focus on operations, maritime 
domain awareness, environmental protection, communications, 
strategic partnerships, academic and scientific research, 
contingency planning, and international cooperation and 
coordination.
    One such initiative is the establishment of an Arctic Coast 
Guard Forum for the eight Arctic Council nations to coordinate 
exercises, strengthen relationships, and implement the recent 
Arctic oil spill response and search and rescue agreements.
    Today Coast Guard aircraft and vessels patrol nearly 1 
million square miles of ocean off the Alaskan coast to enforce 
U.S. laws, conduct search and rescue, assist in scientific 
research, advance navigation safety, and foster environmental 
stewardship. We use polar-class icebreakers, National Security 
Cutters, and ice-strengthened buoy tenders, in additional to 
seasonal air and communication assets to execute these 
missions. We work with the Department of Defense, specifically 
the Navy, to advance maritime domain awareness by testing 
Arctic technologies and capabilities, including communications 
equipment, unmanned aerial vehicles, and ice radars. We have 
conducted ice rescue training, exercised pollution response 
capability, and collected scientific data that will be used to 
further the understanding of this Arctic ecosystem.
    And just as we do elsewhere, we respond to emergencies. 
Healy recently diverted from scientific research to respond to 
a 36-foot sailing vessel beset in the ice 30 nautical miles 
north of Barrow. It was about a 6-mile transit in to rescue 
that individual.
    Current and future operations in the Arctic and Antarctic 
will continue to be informed by the availability of polar 
icebreakers and ice-strengthened vessels. Polar Star's recent 
reactivation will provide the U.S. with heavy icebreaker 
capability for about another 7 to 10 years. We believe that 
Polar Star, along with the medium icebreaker, Healy, provide a 
minimum capability necessary to address the Nation's near-term 
icebreaking needs in the Arctic and Antarctic, and will give us 
the time we need to assess longer term national needs and 
requirements.
    Mr. Chairman, the increasingly accessible Arctic region and 
the opening of Arctic waters present unique opportunities and 
significant challenges for our Nation. We look forward to 
working with the administration and Congress to ensure that the 
Coast Guard, with its unique authorities, missions, and 
partnerships, can continue to support U.S. national priorities 
in the Arctic and Antarctic regions, and to remain always ready 
to meet the demands of emerging maritime frontiers.
    Thank you for the opportunity to testify today, and I look 
forward to your questions.
    Mr. Hunter. Thank you, Admiral.
    Admiral White?
    Admiral White. Good morning, Mr. Chairman. First of all, 
good morning, Chairman Hunter; good morning, Ranking Member 
Garamendi; good morning, other subcommittee members. My name is 
Rear Admiral Jonathan White, and I currently serve, as 
mentioned, as the Oceanographer and Navigator of the Navy, and 
as the lead of the Navy's Task Force Climate Change. I have 
submitted my full written statement to the committee. I ask 
that it be made part of the hearing record. And, with your 
permission, I will give a brief opening statement.
    I join my colleagues in supporting the President's National 
Strategy for the Arctic Region, and appreciate the opportunity 
to discuss the Navy's preparations in implementing U.S. policy 
in the Arctic. The Arctic Ocean is experiencing significant 
change in its seasonal ice coverage, which is making it more 
accessible to maritime activity. The diminishing sea ice is 
slowly opening the region to increased commercial activity and 
shipping.
    As the maritime domain, the Navy has responsibilities in 
the Arctic. In support of the U.S. National Strategy for the 
Arctic Region and the Department of the Defense Arctic 
Strategy, the Navy has identified four strategy objectives: 
ensure U.S. Arctic sovereignty; provide ready naval forces; to 
preserve freedom of the seas; and promote partnerships.
    We acknowledge that the risk of conflict in the region is 
currently low. The Arctic Council and other diplomatic venues 
provide effective means to resolve disputes between nations. 
However, the U.S. Navy must be ready to operate in this 
challenging environment, just as it does routinely on, under, 
and above every other ocean.
    History shows us that the presence of navies on the world's 
oceans provides security and stability that promote economic 
development and commerce. As President Theodore Roosevelt 
stated over 110 years ago, ``A good Navy is not a provocation 
to war, it is the surest guaranty of peace.''
    The Navy's existing posture is appropriate to address the 
near-term defense requirements in the Arctic, primarily through 
undersea assets. For the Navy to develop the full range of 
capabilities it has in other oceans will take time.
    This past February, the chief of naval operations, Admiral 
Jonathan Greenert, signed the U.S. Navy Arctic Road Map 2014-
2030, which aligns with the National Arctic Strategy and the 
U.S. Coast Guard Arctic Strategy. It includes a detailed 
Implementation Plan to develop Arctic capabilities and capacity 
in step with the changing environment.
    Over the next decade, the Navy will continue to develop 
capabilities and experience, largely through personal exchanges 
and exercises in the high latitudes, and primarily in the open 
water during the summer season. We will also continue to 
conduct research to better understand and predict the complex 
Arctic environment and how it relates to safe and effective 
naval operations.
    Our challenge over the coming decade will be to balance the 
resource demands of current requirements with investments in 
the development of future capabilities. To accomplish this, the 
Navy will emphasis low-cost, long lead-time activities, and use 
partnerships to ensure we do this in cost-effective and smart 
ways. Over the course of the next few years, the Navy will 
continue to leverage strong partnerships with the U.S. Coast 
Guard and other national and international Arctic partners and 
stakeholders to cooperatively address the challenges of Arctic 
operation.
    These challenges are substantial, the Arctic Ocean is a 
vast and remote frontier with little shore infrastructure to 
support operations, frequent extreme hazardous wind and sea 
conditions, very limited navigation aids, dated and unreliable 
navigation charts, and limited communications. By the mid-
2020s, we predict the summer sea ice will diminish to the point 
of opening a near-polar deepwater transit route across the 
Arctic for at least several days during the late summer.
    As commercial enterprise in the Arctic slowly increase 
during this period, new mission requirements for the Navy will 
likely be to assist the Coast Guard and other nations with 
search and rescue or disaster response. But we may also be 
called upon to ensure freedom of navigation in Arctic waters. 
We will continue to transition toward the capability to operate 
on and above the sea for sustained periods, as required.
    By 2030, the Navy looks to have the necessary trained and 
equipped personnel, along with surface, subsurface, and air 
capabilities to respond to contingencies and emergencies 
affecting national security in the Arctic. The U.S. Navy must 
be prepared to sail on to distant and remote waters to protect 
national interests and freedom of the seas.
    We are confronted today by the prospect of a newly 
accessible ocean, one that presents significantly more 
challenges than other maritime regions. Fortunately, we have 
time to prepare. We have made significant progress in 
understanding those challenges, and preparing the Navy for 
success. The key, again, will be to balance potential 
investments with other service priorities. But we are moving 
forward with a flexible approach, and we know we can keep pace 
with the evolving Arctic region, as we protect our national 
security interests.
    Thank you, Mr. Chairman and Ranking Member Garamendi and 
committee members, for the opportunity to appear before you 
today. This concludes my oral statement, and I look forward to 
your questions.
    Mr. Hunter. Thanks, Admiral. They have a nickname in the 
Navy for the Navigator of the Navy? I mean, do you have a 
nickname? They call you ``Nav'' or anything?
    Admiral White. The best job and title for a flag officer in 
the Navy, sir, in my opinion.
    [Laughter.]
    Mr. Hunter. That is great. ``The Navigator.''
    Admiral White. The Navigator would be better.
    Mr. Hunter. Ambassador Balton, you are recognized.
    Mr. Balton. Good morning, Chairman Hunter, Ranking Member 
Garamendi, other members of the subcommittee. I appreciate the 
opportunity to be before you today. I also have a written 
statement and I ask that it be included as part of the record.
    The United States and other Arctic nations now face new 
challenges and opportunities in the Arctic region. I will try 
to summarize our approach to these issues, with a particular 
focus on our upcoming chairmanship of the Arctic Council.
    As we have already heard, the Arctic region is experiencing 
very significant change, much of which results from a warming 
climate. Sea ice, glaciers, ice sheets are diminishing, 
permafrost is thawing, coasts are eroding. These and related 
phenomena are causing very serious problems for the roughly 4 
million people who live north of the Arctic Circle and for the 
governments of the Arctic nations.
    But, at the same time, these very changes are presenting 
new opportunities, including increased shipping, offshore 
hydrocarbon development, tourism, other activities. Our 
Government and others are seeking ways to take advantage of the 
opportunities in a safe, responsible, and sustainable way.
    In promoting our Nation's interests in the Arctic region 
and strengthening international cooperation, we use the Arctic 
Council as the primary mechanism for multilateral engagement. 
The Council was created in 1996. It is a high-level 
intergovernmental forum of the eight Arctic States and the 
Arctic indigenous peoples, as well. The challenges and 
opportunities of the Arctic have grown. And, so too, the 
Council has evolved. It now has six standing working groups, a 
permanent secretariat, and has taken on some new and impressive 
tasks, including serving as the venue for the negotiation of 
the first two binding agreements among the eight Arctic 
governments.
    The United States is a leader of the Arctic Council. We 
have led or co-led many of its most important initiatives. And, 
yes, we will assume the chairmanship of the Arctic Council next 
April for 2 years.
    The Department of State is currently in the process of 
developing a robust program for our chairmanship through 
regular meetings with our Federal interagency counterparts, the 
State of Alaska, the Alaska congressional delegation, others in 
Congress who care about this, Alaska Native groups, industry 
groups, environmental groups, other interested stakeholders. We 
have not finalized our proposed program yet, but I can tell you 
it will be in line with the National Strategy for the Arctic 
Region issued in May 2013, and the subsequent implementation 
plan.
    Current areas we are thinking of highlighting include 
climate change in the Arctic, improving economic and living 
conditions for Arctic residents, and responsible stewardship of 
the Arctic Ocean. Examples of projects in these areas might 
include improving access and availability to clean energy in 
remote Arctic communities, improving water sanitation, 
improving black carbon regulation, and pursuing an 
international management framework for living resources of the 
Arctic Ocean.
    We are still consulting with stakeholders in the United 
States on these ideas and others. We then must present them to 
the seven other Arctic governments; the Council operates by 
consensus, we will have to negotiate our proposed program with 
our partners in the Council.
    As noted, and recognizing the importance of the Arctic, 
Secretary Kerry has appointed Admiral Robert Papp to lead our 
efforts to protect and advance U.S. interests in the Arctic as 
the State Department's Special Representative for the Arctic 
Region. We anticipate that Admiral Papp will soon travel to 
Alaska to consult with those on the front lines of our Arctic 
State.
    Please allow me to say just a word about the importance to 
U.S. Arctic interests of our joining the 1982 Law of the Sea 
Convention. The Convention provides the basic legal framework 
applicable to all the oceans, including the Arctic. Its 
provisions are highly favorable to U.S. national security and 
economic interests. As we speak, the United States and other 
nations with coastlines on the Arctic are working to determine 
the outer limit of their respective continental shelves.
    Unlike the other Arctic nations, however, the United States 
is not a party to this Convention. And this places us at a very 
serious disadvantage in securing legal certainty and 
international recognition of the outer limits of our outer 
continental shelf in the Arctic and elsewhere. What is at stake 
is the exclusive right to resources on and under the 
continental shelf. More broadly, U.S. succession to this 
Convention is a matter of geostrategic importance in the Arctic 
and elsewhere. We need to be a party to fully claim our 
rightful place as an Arctic nation.
    In conclusion, the Arctic presents enormous and growing 
geostrategic, economic, environmental, and national security 
implications for the United States. We are endeavoring to meet 
those challenges in the Arctic, and to seize the opportunities 
within our grasp. I very much appreciate the opportunity to 
appear before you today. Happy to answer any questions you may 
have. Thank you.
    Mr. Hunter. OK, thank you, gentlemen. I am going to start 
the questions now, starting with myself. So here is my 
question. It is pretty basic.
    There is a lot of talk about how important the Arctic is, 
but I don't believe it. I don't believe it is worthwhile at 
all, because there is no money allocated towards it, the Navy 
is not putting any money towards it, Homeland Security is not 
putting any money towards it. You have a chart in front of you 
that I would have liked to have made big, but it is not. This 
shows all the icebreakers that other countries have. We have 
one that can't even go in the thick ice right now at all.
    So, my question is, why is it a national security--why is 
it important, national security-wise, and why do we really need 
icebreakers? Can't we just use Russia's? Can't we use 
Finland's? Canada's? Sweden's? Argentina's? Australia's? 
Chile's? Estonia? Germany? Japan? Why can't we use theirs? And, 
if it is so important, why aren't we doing anything, except 
talking about it and making sure we have groups planning for it 
and meeting with each other to talk more about it, but not 
really caring to put money in? So it must not be that 
important.
    Admiral Neffenger. Well, Mr. Chairman, I can answer from 
the Coast Guard's perspective. What I would say is that the 
Nation--we are an Arctic nation, not simply a nation with an 
Arctic State. And I speak purely from the physical fact, that 
we, as a nation, touch Arctic waters. And those Arctic waters 
are U.S. waters, and U.S. laws and regulations apply in those 
waters, just as they do elsewhere.
    And so, from our perspective, we know that it--the region, 
when it was ice-covered all the time, was a region you could 
choose to go to, and we did, as a nation, for many purposes. 
Some were exploratory in nature and some were defense-related 
in nature, specifically the establishment of the DEW line back 
in the fifties. But now it is a region where the accessibility 
is allowing it to be open to human activity. And, as I said, 
that human activity is taking the form of extractive resource 
mining, the potential for development of ecotourism, and, of 
course, new trade routes.
    So, from our perspective, we now have a requirement to be 
present. The Nation expects us to be present to extend its 
sovereign responsibilities over its waters, wherever there is 
activity in those U.S. waters that demand U.S. Coast Guard 
presence. And we see that in the form of concerns over the 
amount of--potential amount of traffic that is going through. 
The good news is it is a relatively limited development right 
now, and we have--it is a measured evolution of change in the 
Arctic. But, nonetheless, we are seeing increasing traffic and 
we are seeing increasing activity, and we expect that Shell Oil 
will return to the northwest coast of Alaska to attempt to 
continue its drilling operations that it started back in the 
summer of 2012.
    So, it is purely from an operational standpoint that we see 
the importance of it, and we articulated that. That is why we 
put out an Arctic Strategy. We really wanted to make it clear 
that, despite the challenges associated with the resourcing of 
Arctic needs, the demand for presence won't go away. And, as I 
said, as other nations--whether we ultimately develop much off 
of our own Arctic coast, the development that is existing 
elsewhere in the Arctic, and the stuff that I have seen going 
on through my travels, tells me that we are going to want to 
pay attention to it.
    Mr. Hunter. Thanks. Admiral White, when is the Navy going 
to put forward funds for an icebreaker, if it is so important?
    Admiral White. Sir, we view--and since the mid-1960s, 
icebreaking has been a Coast Guard mission. We support the 
Coast Guard's strategy and their requirements for icebreaking 
for the Arctic and anywhere else that it may be needed. We rely 
on them, we support them. We are working very closely with them 
in an integrated planning team----
    Mr. Hunter. You support them with money?
    Admiral White [continuing]. Requirements.
    Mr. Hunter. You support them with money?
    Admiral White. We do not support them with part of our 
budget, sir. They were given the mission, we are a mission-
funded organization. And so, we rely on them. But we support 
them totally with the requirements. We work hand in hand, 
whether it is icebreakers or maybe aircraft carriers or landing 
ships. It is a team approach that we do to all the operations 
that we are involved in together. But icebreaking was given to 
the Coast Guard, and we are in full support of them.
    Mr. Balton. So, unlike my colleagues, the mission of my 
agency is a little bit different. The Department of State has 
as its mission to carry out U.S. foreign policy. We don't break 
ice, we don't operate at sea.
    That said, I agree with you, that--with respect to the 
importance of having icebreaking capability in the Arctic and 
Antarctic, including for our foreign policy and our presence. 
But I would not agree that is the only measure of the 
importance of the Arctic to our Nation. There is a lot going on 
in the Arctic. The icebreaking issue is only one facet of many.
    Mr. Hunter. As I have got 13 seconds left, let me ask this. 
Does the Navy have a national security requirement for a heavy 
icebreaker in the Arctic? Yes or no?
    Admiral White. The Navy has a requirement for icebreaking 
to support assured access in the Arctic, as--under the Coast 
Guard--agreement with the Coast Guard, that they will do the 
icebreaking for us. Right now we have no requirement to build--
for the U.S. Navy to build an icebreaker for the Arctic, and we 
rely on the Coast Guard's capability to break ice. They are 
meeting the requirements that we have in the near term, and we 
fully support that, sir.
    Mr. Hunter. All right, thank you. Mr. Garamendi is 
recognized.
    Mr. Garamendi. Just very quickly on this, the number that I 
have heard for a new icebreaker is somewhere in the half-a-
billion dollar range. And I would just tell all of us that are 
on the Armed Services Committee that we expect to spend, in the 
next 10 years, some $15 billion rebuilding the B61 bomb that 
nobody knows what to do with.
    So, we have choices, and we ought to look to ourselves 
about the choices we make. We are committed to that $15 
billion. We could take a half dozen of those unnecessary, 
unused bombs, and build a icebreaker. These are our choices. 
Responsibility really does lie here.
    Enough of that. I want to hit the Law of the Sea. Mr. 
Ambassador, you spoke quickly to that issue. I would like you 
to expand upon it, and really why it is important. And also, 
why, in your view, it has not yet passed the Senate, so we can 
blame them, rather than us, on this one.
    [Laughter.]
    Mr. Balton. Thank you, sir. The Law of the Sea Convention 
is important for many reasons, including in the Arctic. What I 
touched on in my oral statement has to do with the extended 
continental shelf. If you know about this, under international 
law, the Law of the Sea, the country with the coastline gets 
the first 200 miles off its coast as its continental shelf, 
regardless of what it looks like down there, what it is made 
out of. And then----
    Mr. Garamendi. Exclusive Economic Zone.
    Mr. Balton. No, we are talking about the sea floor under--
--
    Mr. Garamendi. OK.
    Mr. Balton [continuing]. The Exclusive Economic Zone, the 
continental shelf.
    Mr. Garamendi. Got it.
    Mr. Balton. So you get the first 200 miles as a given. But 
then, if you can demonstrate that the area beyond 200 miles 
meets certain tests set out in the Law of the Sea Convention, 
you can claim that, too. And there is a process set out in the 
Law of the Sea Convention to guarantee recognition by other 
countries to this area of sea floor.
    The area of the U.S. continental shelf beyond 200 miles in 
the Arctic and elsewhere may be two to four times the size of 
California, may have trillions of dollars of resources under 
there. But as a nonparty to the Convention, we don't have the 
process to go through to get the international recognition of 
our continental shelf beyond 200 miles. That is a serious 
disadvantage for the U.S. There are others, as well, but I 
think it is one of the most compelling reasons why----
    Mr. Garamendi. What are the issues why it has not passed 
over the last, what, 15 years or more?
    Mr. Balton. You probably should ask some of your 
counterparts in the Senate. This administration----
    Mr. Garamendi. No, I am asking you for your opinion.
    Mr. Balton. Well, I am saying this administration----
    Mr. Garamendi. Don't be diplomatic, just tell us.
    Mr. Balton [continuing]. The last administration, the 
administration before that have all supported it.
    Some of the complaints we have heard have to do with 
worries about dispute settlement under the Convention. There is 
compulsory and binding dispute settlement over most disputes 
that might arise under that. We think that is actually a good 
thing. We are likely to be the plaintiff in most cases, and use 
the dispute settlement mechanism to enforce the rules of the 
Convention, which are favorable to the United States.
    There are also some concerns about the sharing of resources 
under the Convention.
    Mr. Garamendi. OK. I want to--better move on here.
    We have not really had a discussion about the two sea 
routes, and specifically the Northern Sea Route, which is 
adjacent to Russia. Just quickly, let's get that on the table 
so we understand what the implications are for the U.S. Coast 
Guard, the Navy, and then the diplomat issues.
    Admiral Neffenger. Yes, sir, thank you. As you know, the 
Northern Sea Route is a route that was--is proposed and 
developed by the Russian Federation, which travels along their 
northern Arctic coast, and it allows for, under some 
circumstances, significantly shorter route times from Europe to 
Asia for certain types of cargo. That sea route--the Russians, 
2 years ago, established the Northern Sea Route Administration, 
and established a series of regulatory requirements that have 
to be met in order for vessels to use that. They really are 
developing this as a potential trade route.
    It has largely been used intra-Russia right now. They are 
moving from port to port within Russia. There have been a 
couple of transits across that. We are seeing still in the 
double-digit numbers, not much more than that. I think some 47 
vessels transited the Northern Sea Route last year. I can get 
the exact number for the record.
    [The information follows:]

        Seventy-one (71) vessels transited the Northern Sea Route in 
        2013.

    Admiral Neffenger. But the implications for us are that all 
of those vessels will travel--if they are making the full 
transit, will travel through the Bering Strait, which, as you 
know, in its narrowest point, is within about 20 miles or so of 
the Russian Federation. That means that if there were to be a 
maritime casualty in those straits, it would directly affect 
U.S. interests, and could potentially do significant damage to 
U.S. environmental concerns in Alaska.
    The other concern is simply the management of that traffic 
through there, understanding, you know, how to do so safely.
    So, I would say that the--as we--it will be interesting to 
watch the development of the Northern Sea Route. I know that 
the Russian Federation has--sees that as one of their key 
economic development issues with respect to their Arctic 
coastline. What we are mostly seeing is gas and oil moving 
across there. That poses probably the concern that, if you had 
a casualty, it could be one that would be significantly worse 
than, say, a cargo vessel moving through there.
    Mr. Garamendi. I will come back. I will take up the issue 
second round.
    Mr. Hunter. Mr. Rice would be recognized right now, but we 
are going to recognize Mr. Coble because of his seniority and 
Coast Guard service. And he hates waiting.
    Mr. Coble. I apologize for my delayed arrival. Admiral 
Neffenger, at the subcommittee fiscal year 2015 budget hearing 
in March Admiral Papp expressed his concern that the Coast 
Guard could not afford to acquire a new polar-class icebreaker 
on its own without significantly delaying its current program 
to replace its aging fleet cutters and aircraft. I think the 
chairman touched on this, at least indirectly. What say you in 
response to that? Do you embrace Admiral Papp's conclusion?
    Admiral Neffenger. Yes, sir. I would agree with Admiral 
Papp. I mean he is absolutely right, that under our current 
fiscal constraints it would be very challenging to insert the 
cost of a polar icebreaker into our capital acquisition budget. 
We--it would displace other existing high priorities, such as 
the recapitalization of our Medium Endurance Cutter fleet, 
which is one of our most critical pressing needs.
    So, over the next 2 to 3 years we are going to be looking 
at the--getting a better fidelity on the actual cost to 
replace, as we look at the requirements and some initial design 
possibilities, as well as assess the state of the U.S. 
shipbuilding industry, to actually build an icebreaker, 
something they haven't done, and a heavy icebreaker is 
something they haven't done in over 40 years. And that will 
give us a better idea.
    But ultimately, we were going to have to face the question 
as to how you put additional monies into a budget to pay for 
what will be a very expensive acquisition.
    Mr. Coble. I realize, Admiral, this is not your shop. But 
when I was in the Coast Guard, we referred to the Navy as the 
``Big Outfit.'' So what does the Big Outfit say in response to 
my question?
    Admiral White. And I hope the Big Outfit doesn't mean we 
are the fatted calf to pay for icebreakers, sir, but thank you 
for the opportunity.
    We are larger. We certainly have large force structure. But 
our force structure is designed to meet the mission 
requirements for national security and defense, as outlined.
    These are very austere budget times. We are faced with 
challenges, in terms of replacing our SSBN force in the future: 
aircraft carriers, an aging fleet of other surface combatants, 
submarines and aircraft. We have no plan to build an 
icebreaker. We have no mission for icebreaking. Therefore, we 
see the great partnership that I know you are aware between 
Navy and Coast Guard, sir, as the means by which we will rely 
on the Coast Guard for that mission, as it stands right now. We 
are happy with that, and we are happy with the Coast Guard's 
assessment on how they are going to meet those mission 
requirements in the future, sir.
    Mr. Coble. Ambassador, you mentioned that there are other 
issues in the Arctic, in addition to the Coast Guard icebreaker 
issue. Are any of those other issues as pressing for resolution 
as is the icebreaker issue? That may be subject to personal 
interpretation.
    Mr. Balton. Yes, that is kind of an open-ended question. 
Here is my best answer for you, sir. Yes, there are other 
compelling issues in the Arctic beyond those that have direct 
concern to the Coast Guard and the Navy.
    Ways of life in the Arctic are changing very rapidly, as 
the conditions in that part of the world change, for the 
indigenous and subsistence populations, particularly in the 
northern part of Alaska, Canada, and Greenland. The role of our 
Government must be to help adapt to the changes that are 
coming. This includes failing infrastructure, because of 
permafrost thawing; coastal erosion; health issues that are 
arising. Those are some of the other compelling issues that I 
see there, sir.
    Mr. Coble. Gentlemen, thank you for being with us. 
Appreciate it.
    Mr. Chairman, thank you for your courtesy. I yield back.
    Mr. Hunter. Thank the gentleman. The gentleman from 
Washington is recognized.
    Mr. Larsen. Thank you, Mr. Chairman. Apparently I have got 
the little kid's chair from Thanksgiving, so I will try to sit 
up higher.
    [Laughter.]
    Mr. Larsen. So I was wondering, Admiral Neffenger, could 
you tell us more about the preservation work the Coast Guard is 
doing on the Polar Sea, and then tell us how that work affects 
decisions about its future? And third, let us know when the 
Coast Guard will come to a final decision on what to do with 
the Polar Sea.
    Admiral Neffenger. Yes, sir. As you know, the Polar Sea has 
sat dockside for the past 2\1/2\ years in an unmaintained 
status. The current--it has not had preservation work done to 
preserve it for a long period of time. And what I mean by that 
is we put her into a dockside status, but still in commission.
    There is $8 million currently in the Senate mark of our 
appropriations bill, which will provide the funding necessary 
to do preservation work, to dry dock the vessel, to blank off 
all the overboard discharges, and to arrest the current 
condition of the vessel. Once that is done, then we will have 
to take a detailed look at it to determine what the true work 
list and cost would be to reactivate the vessel.
    So, the reactivation remains an option for us, but we don't 
currently have plans to reactivate it. The current plans are to 
do the preservation work necessary to put it in an arrested 
status, and then conduct the detailed engineering review to 
determine what systems would have to be upgraded and renewed in 
order to bring it back into service.
    Mr. Larsen. So the business case analysis the Coast Guard 
did at the direction of this subcommittee and the full 
committee that resulted in an approximate $100 million cost to 
reactivate and begin to use Polar Sea, did that $100 million 
include this approximate $8 million to preserve it, or was 
that--is that a dollar amount beyond the $8 million?
    Admiral Neffenger. That would be a dollar amount beyond, as 
I understand it, and I will make sure I get that correct for 
the record. But, as I understand it, the--that $100 million was 
a snapshot in time, if we were to have begun at that point to 
reactive the vessel. We believe that there has been some 
additional deterioration in the 2\1/2\ years it has been 
sitting. And it is not as if it is--we are actively not 
concerned about that. But----
    [The information follows:]

        The $8 million for a preservation drydocking of Polar Sea is in 
        addition to the $100 million reactivation estimate provided in 
        the Coast Guard's Business Case Analysis.

    Mr. Larsen. Well, it doesn't rain a lot in the Northwest, 
so it is probably not----
    [Laughter.]
    Admiral Neffenger. But I suspect it will be something more 
than $100 million, once we do the assessment. We learned a lot 
in the reactivation of the Polar Star, and we have discovered 
some things with respect to the systems on the Polar Star that 
we would have to upgrade on the Polar Sea, were we to bring her 
back in service, as an additional bridging strategy, what we 
consider longer term needs.
    Mr. Larsen. Right. You are right, sure.
    So, Admiral White, I came in at the end here, and--of your 
answer to your question. I got the gist of it. But can you 
tell--give me a sense, and the subcommittee a sense of how the 
Navy was engaged in the construction of our last icebreaker, 
the Healy? About 1990-ish.
    Admiral White. Yes, sir. In the 1980s, Congress provided 
the funding that had been set aside to build Healy to the Navy 
to run the acquisition program. Then, in the building of Healy, 
it was a team effort. So the program management and the actual 
building, outfitting, transition of operations, was a Coast 
Guard/Navy partnership approach. But it was purely because the 
funding was put into our shipbuilding coffers, not out of hide, 
as it were, to do that, sir.
    Mr. Larsen. So it was a separate dollar amount, and it was 
part of the overall shipbuilding account, set aside within the 
Navy shipbuilding account?
    Admiral White. Yes, sir.
    Mr. Larsen. Is that how that worked? OK, yes. Admiral 
Neffenger, any comment on that?
    Admiral Neffenger. I think he is accurate on that score. I 
don't--I wasn't involved in that----
    Mr. Larsen. Sure.
    Admiral Neffenger [continuing]. At that time, with the 
details on that. But I do know that the money was given to the 
Navy shipbuilding account at the time, and we leveraged the 
capabilities of NAVSEA and Navy acquisition professionals to 
help us with that acquisition.
    Mr. Larsen. Yes. And I will just finish with Ambassador 
Balton, but with a preface. I met with the Ambassador to 
Singapore 2 weeks ago, and they are getting observer status 
with the Arctic Council.
    Can I rephrase? I will just say that again. Singapore is 
getting observer status with the Arctic Council. There is a 
good reason for that, and that is because of Singapore's long 
interest in providing support services in the natural resource 
space, and they see that as important. And if Singapore is 
doing that, there are many other countries doing that. And I 
think the U.S. is perhaps falling a little bit behind on Arctic 
Council.
    So, I want to know what is the administration doing to 
respond to the GAO findings that have come out regarding the 
U.S. policy towards the Arctic Council?
    Mr. Balton. Thank you, Congressman. Yes, you are absolutely 
right. Singapore has already obtained observer status in the 
Arctic Council, along with, at the last meeting, Japan, South 
Korea, China, India, and Italy. Plus, there were others granted 
observer status before that. Clearly, interest in the Arctic 
region is rising, including among States very far from the 
Arctic indeed.
    Yes, we participated in the GAO audit. We very much 
appreciated their attention to the issue. We have embraced 
their recommendations. We are going to do better to make sure 
that the work of agencies within the Arctic Council and 
pursuing Arctic Council projects are properly tracked. We 
accept those suggestions from GAO.
    Mr. Larsen. All right. Well, I appreciate the indulgence 
for a little extra time. And we will help you track those 
findings, as well.
    [Laughter.]
    Mr. Balton. OK.
    Mr. Larsen. Great. Thank you, Mr. Chairman.
    Mr. Hunter. Thank the gentleman.
    Mr. Jolly is recognized.
    Mr. Jolly. No questions.
    Mr. Hunter. No questions?
    Mr. Sanford, any questions?
    Mr. Sanford. Yes, sir. This may or may not be the case, but 
I have heard it suggested, and that is there is a yearly run 
down each--so I am going to the opposite side of the world, but 
it ties to sort of asset utilization and, therefore, service 
life of what is obviously a rare resource, Navy or Coast Guard 
or--in this case, obviously, only Coast Guard--in the world of 
icebreaking, and that is that there is a yearly run down to 
McMurdo Station during their summer to open up the channel into 
McMurdo. It is used, essentially, for one ship, as I understand 
it. And then the ship heads back up to the Northwest.
    But it is apparently a month down and a month back, sort of 
a 2-month voyage. A, is that correct? And what someone 
suggested in the brief conversation I had in this matter was 
that there might be cheaper alternatives to doing that, that in 
some ways taking 2 months to run an icebreaker down to the 
Antarctica and back is a very expensive way of doing business. 
And I would be curious to hear you all's thoughts on that, 
because, you know, if we didn't use it that way, it would 
obviously open up some other alternatives, in terms of sea 
routes in the North.
    Admiral Neffenger. Well, and on your second panel you have 
got the National Science Foundation, Dr. Kelly Falkner, and she 
can speak directly to the impact of that operation on U.S. 
national interests.
    The Coast Guard support to that is, indeed, to break out 
the channel in McMurdo. And although it is for a couple of 
ships that come in, those ships are very critically important 
to the--all the operations that we have going down there.
    And during my recent visit down there this past February, I 
had a chance to spend some amount of time looking at not only 
the scientific research that is going on, but the day-to-day 
real-time data that is being pushed out of there. So I would 
tell you that it gave me an appreciation for how important----
    Mr. Sanford. No, no, I wouldn't question National Science 
Foundation's work in Antarctica. But what I would question is 
is there a--I mean does any cheaper alternative jump out to you 
all, as a taxpayer, other than running an icebreaker a month 
down and a month back.
    Admiral Neffenger. Yes, sir, and I think that is a fair 
question. But the--I think it goes back to maybe the point that 
I made earlier, and that is that, you know, these are remote 
regions by definition. So it is going to--there is a certain 
amount of cost just associated with getting to that region, if 
we decide that there are interests in being there.
    And what we found is that there is very little--despite the 
numbers of icebreakers that other nations are operating, there 
are very few actual heavy polar-class icebreakers in the world 
that are capable of conducting that mission in a safe and 
responsible and efficient way. And so----
    Mr. Sanford. If I might interrupt, what was suggested--and 
again, I would be curious to get your professional opinion--was 
that contracting with some of those other governments could 
take care of the McMurdo station without the 2-month lift down 
and back, and reserve our activity for further north. True or 
false?
    Admiral Neffenger. Well, they--and I know the National 
Science Foundation did, indeed, contract during--from 2006 to 
this past--until just before this past year, when the Coast 
Guard did not have a heavy icebreaker in operation.
    And my only answer to that would be that contracting is 
attractive until the contract vessel is not available any more. 
And I think what we found is that other countries have pulled 
back their icebreakers at times when they needed them, and it 
has left the U.S. Antarctic Program in a challenging situation.
    So, if we want assured access as a nation, then I think the 
Nation needs to decide whether or not it wants to continue to 
field icebreaker capability, despite what is arguably a very 
substantial transit time to get down there and back. So I am 
not sure if that answers your--if that is responsive to your 
question, sir, but that is----
    Mr. Sanford. Last question. Is it essentially a month down 
and a month back? Is that correct?
    Admiral Neffenger. Roughly speaking. Yes, sir.
    Mr. Sanford. Right. I would yield back, Mr. Chairman.
    Mr. Hunter. Thank the gentleman. I got one little quick 
question. I am going to pass it to Mr. Garamendi here.
    Could you answer Mr. Larsen's question on whether--why the 
determination hasn't been made to--whether you are going to 
move forward with the Polar Sea or not? Because that is what 
your--you were going to make a determination. You did an 
analysis, but no determination was made. The determination was, 
``We have now made an analysis.''
    Admiral Neffenger. Yes, sir. Actually, it is not that we 
have been avoiding the determination, it is just the timing 
hasn't yet come forward.
    We have got the Polar Star in operation for the next 7 to 
10 years. That buys us some time to do this requirements 
analysis and assessment that I described as part of the initial 
acquisition stages of a new icebreaker. That doesn't say we are 
going to buy a new icebreaker, it just says, ``Let's see what 
one would look like. What are the requirements we have to build 
into it? How do we strip those requirements down, and make this 
as affordable as possible, given the challenging fiscal 
environment?''
    And then----
    Mr. Hunter. It was Polar Sea that he asked about, 
specifically.
    Admiral Neffenger. Yes, sir. So when you look at Polar Sea, 
we say, ``There may be a need to extend this interim heavy 
icebreaker capability as a bridging strategy beyond 10 years. 
If we need to do so, then this--the money that we have 
requested and that is currently in the Senate mark would give 
us the ability to begin the process of assessing the true cost 
to now bring it back into service, and when we might want to 
bring that back into service,'' because the challenge would be 
not to bring it into service sooner than you need it--otherwise 
you have got overlapping capability, and you may not extend to 
the point where you could have a new icebreaker in the water.
    So, it takes about 3 to 4 years, once you decide to begin 
reactivating to actually do that. And we think that the--over 
the next 2 years we will be able to make a determination as to 
when you want to begin that activation process. Again, I don't 
know if that is as responsive as you need it to be.
    Mr. Hunter. No.
    Admiral Neffenger. But the decision is that it is an 
option. We have a rough idea of what the costs are going to be 
to do it. We know what it is going to take to preserve that 
vessel, to hold it in stasis until we can get the monies, if we 
decide to do so, and then to begin to make the case as to 
whether or not we think we need that, going forward.
    Mr. Hunter. And I am glad Mr. Young got here. I think this 
might be our last Arctic hearing that we have on this, because 
I don't think anybody really wants an icebreaker.
    Mr. Young is recognized.
    Mr. Young. Mr. Chairman, again, thank you. I have problems, 
you know, with the Coast Guard and icebreakers. You are talking 
about repairing an old, old ship. And when you get done, you 
got a ship that is out of style, out of--it doesn't compete. 
And you know, I have talked to every Commandant I have had, and 
I don't know if the Coast Guard is--I guess we are going to 
pass the law on the last study we had.
    I still believe leasing is the option we should take place, 
not foreign vessels. Have you gone to any of the shipyards and 
said, ``What could you build for us?'' Not your--``What could 
you build for us that could do this mission?'' Have you done 
that?
    Admiral Neffenger. Yes, sir. There has been a lot of look 
at the lease. And, as you know, some of the initial evaluations 
and the detailed analyses don't show a competitive advantage or 
a cost advantage to leasing. And I can provide those, again, 
for the record.
    But let me give you my general thoughts on that----
    Mr. Young. Let me interrupt you one moment. When was the 
last study done by the Coast Guard on leasing?
    Admiral Neffenger. It was done 2 years ago, sir.
    Mr. Young. Really?
    Admiral Neffenger. And there is a----
    Mr. Young. Have you submitted that to Congress?
    Admiral Neffenger. Yes, sir, we did.
    Mr. Young. You did?
    Admiral Neffenger. It came in the form of a response to 
queries, but we can--and we can provide that----
    [The information follows:]

        The most recent analysis on leasing was reported in the Polar 
        Platform Business Case Analysis, delivered to Congress on 
        November 2, 2011. The Coast Guard analyzed prospective leasing 
        of currently available platforms and several build-to-lease 
        alternatives.

        The analysis concluded that leasing a polar heavy icebreaker is 
        not feasible or cost effective for the Coast Guard in line with 
        the following reasoning:

        1.  There are currently no U.S.-built polar heavy icebreakers 
        available for demise or time charter. A prospective leasing 
        entity would need to construct a polar heavy icebreaker. 
        Considering the unique design requirements and crewing 
        restrictions associated with multimission operations and 
        defense readiness, and lease terms exceeding that allowed under 
        Office of Management and Budget (OMB) guidelines, a lease would 
        prove more expensive to the Government than purchasing a polar 
        icebreaker.

        2.  OMB Circular A-11, Preparation, Submission, and Execution 
        of the Budget (Appendices B and C) requires agencies to score 
        all long-term lease funding authority upfront in the year the 
        lease is started. This budgetary requirement makes it 
        difficult, if not impossible, to execute long-term capital 
        asset leases, especially considering the high cost of polar 
        heavy icebreakers.

        3.  Contract structures are typically more complex including 
        sophisticated termination liability processes, lease 
        termination clauses and contingent liability clauses which will 
        be difficult to calculate and negotiate, which increases 
        uncertainty and cost risk for both any prospective leasers and 
        the Government.

        4.  Unless capable of self-financing, the leaser would be 
        obligated to obtain financing for prospectively leased ships 
        and aircraft, creating the potential for liens which, in cases 
        of a leaser's financial difficulty, could impact the 
        availability of the polar heavy icebreaker to conduct its 
        missions as required.

        5.  The maintenance support method and costs for nonstandard 
        assets are unknown but would need to be included in the cost of 
        leasing commercial assets. Limited flexibility in maintenance 
        planning may restrict the ability to surge assets or incur 
        significant costs by breaking the terms of the lease. Emergency 
        or unscheduled repairs, which are more likely due to the nature 
        of icebreaking operations, would result in additional costs.

        6.  14 U.S. Code 665 prohibits constructing a U.S. Coast Guard 
        vessel in a foreign shipyard unless the President determines it 
        to be in the national security interest of the U.S. to do so 
        and transmits the determination to Congress. The Coast Guard 
        currently has no plans to construct or lease a heavy icebreaker 
        built in a foreign shipyard.

    Mr. Young. I would appreciate that.
    Admiral Neffenger. The real challenge--it is both a 
challenge with respect to requirements in the build, a 
challenge with respect to sovereign requirements, if--as you 
are operating a military vessel. Some of those are 
surmountable.
    But the real challenge is--well, it comes on a couple 
fronts. There is a scoring issue. Again, that perhaps is 
surmountable, but there is a scoring issue, which actually 
makes a lease less desirable, in terms of costs, than an 
outright purchase. There is the fact that we tend to operate 
our vessels for 40 to 40-plus years. And so leases tend to be 
short-term solutions, bridging strategies to longer term.
    For example, we leased our airborne use of force 
helicopters while we were arming and preparing our existing 
helicopter fleet for service. That provided a good, you know, 
interim bridging strategy until we could get an armed 
helicopter in place in our existing fleet.
    The other problem is that you still have to build heavy 
icebreakers. There are no heavy icebreakers available for 
lease. So you still have to go through the requirements 
process, and we are still looking at a number of years.
    But the real question is, does a lease answer the question 
for that long-term need? If you only use it for a short period 
of time, then you are going to amortize those costs over a much 
shorter period.
    Mr. Young. Well, again, Mr. Chairman, you know how I feel 
about this. I actually believe that I can get a proposal to 
you, if you would be receptive, for a vessel to do the job for 
a lot less. Because you are not going to get the $10 billion 
from this Congress to build a new icebreaker. That simple. You 
are not going to get it.
    Admiral Neffenger. Yes, sir.
    Mr. Young. You can ask all you want, you are not going to--
in the meantime, we don't have icebreakers, and all the rest of 
the countries do have icebreakers. I am looking for a solution 
to a problem, has American-built icebreaker in the Arctic.
    Admiral Neffenger. Well, yes, sir. We would evaluate any 
proposal that comes our way. We are--like you, we are 
interested in finding effective solutions to what is a daunting 
challenge, to put heavy icebreaker capability back on the 
water.
    Mr. Young. Mr. Chairman, that is--I do appreciate your 
having this hearing, because we are an Arctic nation and, you 
know--of course, we may be--cart before the horse, or horse 
before the cart, I don't know which one it is going to be. A 
lot of scientists I talk to, contrary to what people in this 
audience may believe, we may be not having--other than a 
tremendous need for big icebreakers, because it may not quite 
be as warm as they think it is up in the Arctic. Everybody says 
it is going that way, but we will see.
    I want to be flying over this area when I am long gone, as 
a raven. And I want to say if your ancestors get plopped on, it 
is going to be me saying, ``I told you so.''
    [Laughter.]
    Mr. Young. So thank you, Mr. Chairman.
    Mr. Hunter. I envision Don more as an eagle when he comes 
back.
    I have got a quick question. What if the Coast Guard just 
went for search and rescue, navigation aids, fisheries, 
enforcement, oil spill recovery? Forget about the other stuff 
that other agencies want you to do, and the Navy's not--if they 
are not going to help you, they are not going to help you. How 
much would that cost? Just a Coast Guard enforcement-type 
icebreaker to be up there, clear the ice, rescue vessels, and 
not do anything with national security, meaning not be able to 
operate any type of military operation off of it. What would 
that cost?
    Admiral Neffenger. I can't give you a dollar amount, but 
what I will tell you is that is essentially what we are looking 
at, through the requirements process. We have spent a lot of 
time talking to other agencies in the work, and we said, 
``Look, if we build one of these things, we would like to 
build, basically, a heavy icebreaker, and we don't want to load 
it down with things that detract from the ability to break 
ice,'' because, as you know, the more stuff you put on to a 
vessel, the more requirements you ask of it, the more 
compromises you make, in terms of basic hull design, and the 
like, particularly with an icebreaker.
    What I would tell you is that we will probably still need a 
heavy icebreaker, even if you are only conducting Coast Guard 
missions, because you still need the ability to access--and one 
of the things, as I talk to scientists who are looking at a 
receding ice pack--you know, receding doesn't mean 
disappearing, to Mr. Young's point. And what you find is that 
sometimes you have actually much more challenging ice 
conditions as a result of that, because you have ice flows 
moving, they collide into one another, they create pressure 
ridges, and they create much more opportunity, like this 
character that we just rescued from the ice in the Northwest 
Passage, to get beset in the ice and get into trouble real 
fast.
    In fact, we saw an example of that in the Antarctic last 
year, where you had a medium icebreaker from the Chinese and a 
medium icebreaker from the Russians beset in the Antarctic ice. 
And, fortunately, before we had fully diverted to go rescue 
them, the ice pack shifted, as a sort of wind shift, and they 
got themselves free. But they were in danger of being there for 
some extended period of time, because they didn't have the 
capability to break themselves out.
    So, you always want that capability. But I would agree with 
you, that you want to reduce the requirements and descope them 
as much as possible, so that what you have is a purpose-built, 
heavy icebreaker that can conduct the basis round of Coast 
Guard missions.
    Mr. Hunter. Thank you.
    Mr. Garamendi?
    Mr. Garamendi. Just quickly, I think for all of us on this 
side of the panel, the Healy gives us an opportunity and a 
thought process on how it might be done. Money in the defense 
budget was used to build the Healy through the Navy, a process 
that we should take a look at, if we are serious about having a 
new heavy icebreaker.
    I want to go back to the Northern Sea Route. We were 
discussing that issue. It seems to me to be one that we need to 
understand, relationships with Russia and the rest. Admiral 
White, you were going to take up that issue.
    Admiral White. Yes, sir, Ranking Member Garamendi, thank 
you.
    The Northern Sea Route represents the most navigable sea 
route that is open for certain periods of time during the late 
summer during the ice minimum in the Arctic. We anticipate, by 
the mid-2020s, that it will be ice free, which, under 
international definition, means less than 10 percent ice 
coverage, for up to 6 weeks per year. That represents 
significant amount of transit across that passage, even without 
necessarily having to have an icebreaker.
    We look at the Northern Sea Route, and especially the 
entrance to it through the Bering Strait, as a strategic 
crossroads that we are concerned about, just like we are all 
those crossroads, this one especially because we own part of 
that strategic crossroads. So, as we monitor what is happening 
in the Northern Sea Route, we do so from a national security 
perspective, but also understanding that the way that these 
routes unfold in the Arctic, we anticipate that they will do so 
peacefully, with low risk of conflict. We have no anticipation 
of that.
    We also, as I mentioned, are looking for a deepwater route 
to start opening up in the mid-2020 timeframe, which would be 
near the pole, and would provide another alternative, although 
it would unfold and open up more slowly, certainly, than the 
Northern Sea Route. But all these routes are going to change 
the way that the Arctic is looked at, and we are monitoring 
them closely, as we watch our missions evolve, sir.
    Mr. Garamendi. Thank you.
    Mr. Balton. Thank you, sir. I don't have much to add. You 
suggested that relations with Russia are problematic; that is 
certainly so. However, our nations do have common interests in 
the Arctic, and one of them is to prevent or prepare for the 
possibility of a casualty in the Bering Strait region.
    And so, even in these difficult times, we need to be 
working with all of our neighbors, regardless of other 
problems, to----
    Mr. Garamendi. Well----
    Mr. Balton [continuing]. Prepare for just that.
    Mr. Garamendi. The Northern Sea Route appears to be totally 
within the Russian sphere of influence. That is, the economic--
--
    Mr. Balton. Yes, that is true. But vessels that pass all 
the way through the Northern Sea Route come through the Bering 
Strait.
    Mr. Garamendi. Understood.
    Mr. Balton. And that is where our interests kick in, of 
course. Because, if there were an accident there, the effects 
in Alaska and the United States would be palpable.
    Mr. Garamendi. Is that northern route, under the current 
Russian program----
    Mr. Balton. Yes.
    Mr. Garamendi [continuing]. Open to all?
    Mr. Balton. Yes, I do believe so. However, there are 
requirements Russia has put in place for escorts, Russian 
escorts, icebreak escorts and others.
    Mr. Garamendi. I noticed the admiral took a real deep 
breath as you began.
    [Laughter.]
    Mr. Garamendi. So finish, and then the admiral----
    Mr. Balton. No, I was just trying to recall what I had 
heard about that. But the answer is yes.
    Mr. Garamendi. Admiral, anything to add?
    Admiral White. With the qualifier the Ambassador put in, I 
agree. The Russians are very careful, in that they--certain 
ships going through there must be escorted during certain 
parts, because of the concerns with navigating safely, the 
hazardous conditions that are involved, and some of these choke 
point areas going through the Northern Sea Route. So they do 
also require that vessels meet a certain limit through the 
Polar Code and other requirements, in terms of the ship's 
ability to maintain and sustain itself in going through those 
passages.
    So, it is open with conditions, I think, is the best way to 
say it, sir.
    Mr. Garamendi. Very good. I have completed my questions on 
this particular panel. So I will yield back what time there is. 
Thank you.
    Mr. Hunter. I thank the ranking member. Mr. Sanford is 
recognized.
    Mr. Sanford. I don't want to be a broken record, but I do 
want to follow up on what Chairman Young was saying, which is 
this whole leasing alternative. Because when you think about 
it, essentially, about a third of our heavy-duty icebreaking 
capacity is built around that trip down to McMurdo and back. 
You know, settling in after you get back, the trips through the 
South Pacific and back up.
    And therefore, I mean, if you have that kind of time that 
is allotted to that one mission in a multibillion-dollar asset, 
it just begs this larger question of free up that time, have 
that asset utilization available for the Northern Sea Route and 
other, and look at the leasing option that the chairman was 
talking about. And I would yield back.
    Mr. Hunter. Thank the gentleman. Mr. Larsen?
    Mr. Larsen. Thank you, Mr. Chairman. Just to clarify, I 
think in my colleague from Alaska's excitement to be a raven, 
he said an icebreaker cost $10 billion. The only estimates I 
have seen are anywhere from $800 million to $1 billion. Still a 
lot, but not $10 billion. Is that right?
    Admiral Neffenger. That is correct. Those are current, 
rough order estimates.
    Mr. Larsen. Unless you want to buy 10. I will yield to Mr. 
Young.
    Mr. Young. Well, as far as I am concerned, I got that 
number because I thought we were going to ask for 10. I mean I 
never saw an agency that didn't have----
    [Laughter.]
    Mr. Larsen. Duly noted. Duly noted. The other thing I just 
want to clarify, having been here late--but I understand a lot 
of discussion was taking place around icebreakers--but 
implementing Arctic policy is a diplomatic--certainly more and 
more diplomatic effort. But from a Coast Guard perspective, 
icebreakers do not a policy make. There are other assets and 
other missions you have to implement up there. And you all are 
trying to figure out how to do that. Is that right?
    Admiral Neffenger. Yes, sir. And I had mentioned earlier 
that we have a number of initiatives to implement our Arctic 
Strategy.
    Mr. Larsen. Yes.
    Admiral Neffenger. But some of those are policy in nature. 
They include support to the chairmanship of the Arctic Council 
coming up, and they also include support to the Arctic Council 
itself. We serve on a number of the working groups. And, in 
fact, directly involved in the negotiations of the two 
agreements that were referred to on search and rescue, as well 
as on oil spill response.
    We are also looking at, in conjunction with this idea of an 
Arctic Coast Guard forum as a way for the Arctic Council 
nations and the operating agencies, the maritime agencies, the 
Coast Guards or the Coast Guard-like navies of the Arctic 
nations, to work together, to find a way to not just implement 
those agreements, but to think about how you would share 
information, how you would monitor the sharing of that 
information so that you have awareness of what is happening, 
how you would do--conduct joint exercises, and the like.
    So, all of that is designed to take the policies that are 
being discussed, and figure out how you implement those in a 
real-world basis, because that is what we care about. Somebody 
hands us a policy, you think, ``Well, how am I going to 
actually carry this policy out?''
    We are also looking at standing up a Center for Arctic 
Studies and Policy at our Coast Guard Academy, and this is a 
low-cost standup. This is really an establishment of a venue to 
begin to look at those, at the operational implications of 
policies that are being developed with respect to the Arctic. 
And it will give us a chance to, again, to provide an academic 
setting for sharing of that information.
    But I think what I owe you is--the committee is just the 
explanation of that Implementation Plan, and it lays out a 
number of the policy-related initiatives that we have, with 
respect to operations in the Arctic. But it largely centers on 
understanding what is happening up there, working with 
partners, and then looking at governance issues and how you 
would implement those.
    [The information follows:]

        The Implementation Plan for the Coast Guard's Arctic Strategy 
        centers around 12 initiatives. These 12 initiatives carry out 
        our strategic objectives of Improving Awareness, Modernizing 
        Governance and Broadening Partnerships. The 12 are outlined 
        below:

        1.  Enhance Operation Arctic Shield: Operation Arctic Shield is 
        our mobile and seasonal operational presence in the Arctic. 
        This initiative seeks to enhance our operational effectiveness 
        to meet mission demands. Operations include air and sea patrols 
        for search and rescue, maritime domain awareness, training, and 
        protection of sovereign interests; exercises with Federal, 
        State, local, tribal, industry, and international partners; and 
        evaluation of technologies for pollution response.

        2.  Improve Maritime Domain Awareness: Maritime domain 
        awareness (MDA) is a tool used for effective Coast Guard 
        Operations. MDA involves collection, analysis, and 
        understanding of data pertaining to a wide range of information 
        including vessel locations, awareness of current and historical 
        passengers, crew ownership, and financial relationships; what 
        activities the vessels are conducting; what cargoes they may be 
        carrying; and what natural conditions they are facing--wind, 
        seas, tides, currents, storms, ice conditions, and marine 
        mammal migrations. With our Federal, State, local, tribal and 
        international partners, the Coast Guard is developing 
        improvements within this initiative to provide a more complete 
        operational picture of activities in the Arctic.

        3.  Recapitalize Polar Icebreaking: Heavy icebreaking 
        capability is critical to providing assured access to the Polar 
        Regions for the U.S. and executing the Coast Guard's statutory 
        responsibilities in areas such as search and rescue and marine 
        environmental response. The Preliminary Operational 
        Requirements Document (PORD) Integrated Product Team (IPT) has 
        gathered and compiled Coast Guard and external stakeholder 
        requirements (Department of Defense, National Science 
        Foundation, Department of State, Department of Homeland 
        Security, etc.). The PORD is currently in concurrent clearance. 
        The Operational Requirements Document (ORD) and Alternatives 
        Analysis has an estimated completion date of May 2015.

        4.  Improve Arctic communications capabilities: The harsh 
        environment in the Arctic has hampered development of a robust 
        communications infrastructure. The Coast Guard is working with 
        the Department of Defense to evaluate gaps in communication 
        capability and identify communications needed to support 
        military operations in the Arctic region.

        5.  Continue International Maritime Organization (IMO) Polar 
        Code Development: The United States is working through the 
        International Maritime Organization (IMO) to develop and 
        achieve adoption of the Polar Code, which includes both 
        mandatory and recommended provisions, to cover the full range 
        of safety, design, construction, equipment, operational, 
        training, communications and environmental protection matters 
        relevant to ships operating in the Arctic and Antarctic.

        6.  Promote Waterways Management: The Coast Guard is developing 
        Arctic waterways management regimes including aids to 
        navigation, vessel tracking, and ship routing in cooperation 
        with international partners to ensure safe, efficient, and free 
        flow of maritime traffic.

        7.  Support Arctic Council and U.S. Chairmanship: The United 
        States will chair the Arctic Council from May 2015 to May 2017. 
        The Coast Guard expects to play a significant role due to our 
        existing engagement in Council activities. The Coast Guard is 
        currently participating on the Arctic Council Oil Spill 
        Prevention Taskforce and has served on two previous taskforces 
        that established the 2011 Arctic Search and Rescue Agreement 
        and the 2013 Oil Spill Prevention and Response Agreement. The 
        Coast Guard is also active within the interagency process, 
        known as the Arctic Policy Group, in preparation for U.S. 
        chairmanship of the Arctic Council in 2015.

        8.  Establish an Arctic Coast Guard Forum (ACGF): The Coast 
        Guard proposes to establish an Arctic Coast Guard Forum to 
        bring all eight Arctic coast guards together to collaborate on 
        Arctic issues. Modeled after the North Pacific Coast Guard 
        Forum, the ACGF will be a unique arena where the maritime 
        governance service of the Arctic countries discuss coordination 
        of exercises, strengthen relationships, and share best 
        practices. The first ``expert-level'' meeting of the ACGF 
        occurred March 2014 in Canada, and garnered enthusiastic 
        approval of concept. A senior leadership meeting will occur in 
        September 2014 to approve the Terms of Reference and issue a 
        joint statement.

        9.  Establish a Center for Arctic Study and Policy: The Coast 
        Guard will develop a think tank to study the operational 
        implications of policies that are being developed with respect 
        to the Arctic.

        10.  Establish an Arctic Policy Board: The Coast Guard is 
        working with DHS to develop an Arctic Policy Board under the 
        Federal Advisory Committee Act. The Coast Guard will seek Board 
        members from industry, science, academia, tribal communities, 
        environmental groups, and other stakeholders. It will provide a 
        broad range of expertise to the Secretary of Homeland Security 
        on safety, security, and stewardship matters relating to the 
        Arctic region.

        11.  Create an Arctic Fusion Center: The Coast Guard plans to 
        study and, if warranted, implement a Fusion Center to collect 
        and disseminate critical information with Federal, State, 
        local, and tribal stakeholders.

        12.  Create an Arctic Maritime Assistance Coordination Center: 
        The Coast Guard plans to study and, if appropriate, implement 
        an international center for Arctic mission coordination for 
        search and rescue and other emergency response.

    Mr. Larsen. OK, thanks. And for Admiral White, I will 
just--I will follow up with you later about the Navy Arctic 
Road Map. We are--my office is taking a look at that in a 
little more detail, but I will just follow up with you 
specifically on that later.
    Admiral White. Yes, sir.
    Mr. Larsen. Yes. Thank you very much.
    Thank you, Mr. Chairman. Yield back.
    Mr. Hunter. Thank the gentleman. Unless Mr. Garamendi has 
more questions----
    Mr. Garamendi. Just a quick question. A lot of the 
icebreaking activities would seem to benefit commerce, specific 
ships that may want to go from here to there. Can you charge 
for the services, breaking the ice so the ship can pass or get 
unstuck?
    Admiral Neffenger. Well, I suppose the best example would 
be, if you look at the Great Lakes icebreaking mission that we 
have, we do not charge for those services. And--although, what 
we have done there is develop a tiered approach to it. We keep 
the major arteries open, for lack of a better description, and 
then we leave it to commercial icebreaking services and those 
contracted for--to open up the entrances into the ports and the 
small harbors.
    We used to do it all, but over the course of the last 6 or 
7 years we have really changed that, and trying to reduce to 
simply the large--you know, basically the maintenance of the 
main waterway, which is in the interest of the Nation.
    Mr. Hunter. I have got just one last statement, I guess. I 
have always said whoever--I didn't say this originally, someone 
else did, but whoever controls the ocean controls the world, 
right? And now, whoever controls space controls the oceans.
    But I think this portends bad things for America. I think 
you see us with one heavy icebreaker, everybody else with more 
than that. And I think, in 20 years, you are going to see all 
of them in the Arctic doing what we should be doing, and not 
doing it as well as us, or as environmentally safe as we would 
do it, and we will be watching. We will be talking about all 
these policy things we would like to implement, and these neat 
Arctic groups that we talk to ourselves in, but with no actual 
presence in the area.
    I think that is what is happening here. I think we are 
going to look back in 10 years and have absolutely nothing, 
because it doesn't seem like it is that big of a deal, because 
money is not being appropriated or set aside from the Navy's 
$15 billion defense budget, or acquisition budget that the Navy 
has. The Coast Guard's budget is only $1 billion a year. You 
are trying to recapitalize a fleet right now that is 40 or 50 
years old. It is not going to happen.
    And I guess what I would say is that until you want it to 
happen, we are not going to hold another hearing like this, 
unless specifically requested by another Member for a certain 
reason, because nothing has really changed. I mean there is no 
Presidential request for this, there is no money being put in 
by the Navy. I guess the need just isn't there right now. If we 
are happy to let Russia do it for us, we will have Russia do it 
for us. We are happy to have them take us into space, too.
    Mr. Garamendi. They make our rocket engines.
    Mr. Hunter. Then we can do that--yes. So, I guess that is 
what you are saying, because it is all talk. It is no action. 
And it seems like it is not that important that we are in the 
Arctic. Message received here.
    We are not going to force you to do what you don't want to 
do. And if you don't want to be there, and you don't want to 
build an icebreaker, if you don't want to lease one, or if you 
are going to do study after study for 20 years to see what the 
best cost analysis is to do it, then we just won't do it, and 
we will focus on other things, like making sure we have enough 
tunafish for the fleets. And we won't be in the Arctic, and 
that is fine.
    So, with that, I would like to call our second panel of 
witnesses. Thank you, gentlemen. Appreciate it.
    Good morning. Our second panel of witnesses today includes 
Captain Dave Westerholm, Director of the Office of Response and 
Restoration for NOAA; Dr. Kelly Falkner, Division Director of 
Polar Programs at the National Science Foundation; and Ed 
Fogels, Deputy Commissioner of the Department of Natural 
Resources of the great State of Alaska.
    Captain Westerholm, you are now recognized.

   TESTIMONY OF CAPTAIN DAVID WESTERHOLM, USCG, RETIRED, AND 
DIRECTOR, OFFICE OF RESPONSE AND RESTORATION, NATIONAL OCEANIC 
 AND ATMOSPHERIC ADMINISTRATION; KELLY KENISON FALKNER, PH.D., 
DIVISION DIRECTOR, DIVISION OF POLAR PROGRAMS, NATIONAL SCIENCE 
FOUNDATION; AND EDMUND FOGELS, DEPUTY COMMISSIONER, DEPARTMENT 
             OF NATURAL RESOURCES, STATE OF ALASKA

    Captain Westerholm. Good morning, Chairman Hunter, Ranking 
Member Garamendi, and members of the subcommittee. My name is 
Dave Westerholm, and I am the Director of the Office of 
Response and Restoration at the National Oceanic and 
Atmospheric Administration, NOAA, which is in the Department of 
Commerce. In this capacity I was recently selected to serve as 
the Arctic lead for the National Ocean Service.
    Thank you for inviting NOAA to testify today on our work to 
implement U.S. policy in the Arctic. I am pleased to follow my 
colleagues from the U.S. Coast Guard, U.S. Navy, and Department 
of State, and I am pleased to join here my colleagues from the 
National Science Foundation and the State of Alaska Department 
of Natural Resources. We work with all of these agencies to 
advance U.S. security interests, pursue responsible 
stewardship, and improve maritime domain awareness, safety, and 
environmental intelligence in this critical region.
    NOAA envisions an Arctic where decisions and actions are 
based on sound science, and support healthy, productive, and 
resilient communities and ecosystems. To achieve this vision, 
NOAA is using state-of-the-art technology and innovative 
partnerships to improve Arctic marine navigation, provide ocean 
and coastal observations and weather forecast, promote 
environmental stewardship, and prepare for and respond to 
maritime hazards.
    Although NOAA provides important stewardship in science in 
the Arctic region, today I would like to focus my remarks on 
the services that NOAA provides, which are deemed critical in 
various Arctic reports to meet our Nation's maritime safety, 
economic security, and environmental protection needs.
    One of these services is charting, and NOAA is responsible 
for providing foundational data and services to support safe 
marine navigation and domain awareness. Accurate and up-to-date 
nautical charts are critical to safe operation, and these 
charts require not only bathymetric data, but also data on 
shoreline features, water levels, sea floor characteristics, 
and precise positioning. NOAA is investing in hydrographic 
surveys in the Arctic, as well as shoreline mapping missions 
and tide and current surveys, in order to enhance our 
navigation products and services.
    Furthermore, NOAA is working closely with our partners such 
as the State of Alaska, the U.S. Coast Guard, Navy, and members 
of the academic community to provide the data needed for safe 
navigation, science, and more informed coastal decisionmaking.
    Major stakeholders and partners, including those who live, 
work, or are responsible for activities in the Arctic, also 
require weather, water, and sea ice information for planning 
and decisionmaking. NOAA provides this information. However, 
weather analysis and prediction capabilities are not as robust 
in the Arctic as they are in other parts of the United States, 
due to the limited scope of existing observations.
    Because of Alaska's vast size, remote population, and 
environmental conditions, our decision support services are 
vitally important to Arctic communities. As an example, the 
decision when to deliver heating and fuel oil to a coastal 
community may require weather and sea ice outlooks weeks in 
advance to ensure safe transit.
    NOAA is also responsible for delivering scientific support 
to the U.S. Coast Guard for marine hazards, including oil 
spills and marine debris, which can pose additional challenges 
in the Arctic. With decreased summer sea ice, we expect to see 
continued growth in maritime commerce, tourism, and oil and gas 
exploration. Given this growth, we must be prepared in the 
event that a vessel or exploratory drilling unit has an oil 
spill.
    To support our planning and preparedness for spill response 
in the Arctic, NOAA has been working with all our partners, 
engaging with Alaska communities, and compiling and developing 
baseline information on natural resources. We are providing 
access to critical observations and data through the Alaska 
Ocean Observing System, and we have launched a web-based tool 
to assist emergency responders in dealing with incidents called 
the Arctic Environmental Response Management Application, or 
Arctic ERMA. Arctic ERMA was tested during the 2013 Arctic 
Shield operation, in collaboration with the U.S. Coast Guard. 
Arctic ERMA is again being used in Arctic Shield in 2014 to 
further enhance our ability to respond to an Arctic incident.
    As transportation grows in the Arctic, where there is 
cargo, tank, fishing, cruise, or recreational vessels, the 
potential for incidents will continue to grow, and we must be 
prepared to give the response community the most accurate 
navigation, weather, and sea ice information possible, as well 
as sound scientific advice on the most effective response 
strategies. We will continue to build our services in the 
Arctic, working with our Federal and State partners, as well as 
academic institutions, local communities, and industry.
    In closing, NOAA plays a unique and important role in 
providing critical information and services to support safe, 
reliable, and efficient navigation in the Arctic. I thank you 
for inviting NOAA to testify today, and I welcome any questions 
you may have.
    Mr. Hunter. Thank you, Captain. Dr. Falkner is recognized.
    Dr. Falkner. Chairman Hunter, Ranking Member Garamendi, and 
distinguished members of the subcommittee, we appreciate this 
opportunity to discuss how the National Science Foundation is 
implementing U.S. policy and meeting its icebreaking needs for 
research in the Arctic, as well as for research and operations 
of the U.S. Antarctic Program that NSF manages on behalf of the 
United States.
    To promote scientific progress, NSF bears a critical 
responsibility for providing scientists with access to the 
oceans. In recent decades, the polar oceans have undergone 
wide-ranging physical, chemical, and biological changes, with 
implications for global change. Moreover, relatively unexplored 
Arctic and Southern Ocean areas remain ripe for new 
discoveries. I refer you to my written statement for important 
examples of polar marine science objectives.
    So, Mr. Chairman, ice-capable research platforms are 
essential to keeping the U.S. at the forefront of polar 
research. In addition, NSF also requires heavy icebreaker 
services to conduct vital annual resupply of our Nation's 
Antarctic research program.
    So, with respect to Antarctic operations, U.S. policy calls 
for year-round U.S. presence at three research stations in 
Antarctica: McMurdo, Amundsen-Scott South Pole, and Palmer. 
These support an active and influential science presence that 
ensures the U.S. a leading role in governance through the 
Antarctic Treaty system.
    Last year, after a 7-year hiatus, the Coast Guard 
successfully provided icebreaking services for Antarctic 
operations via the 38-year-old refurbished Polar Star. Barring 
unforeseen circumstances, the Coast Guard expects it will be 
able to meet this mission requirement for at least the 
remainder of Polar Star's projected life of 6 to 9 years. We 
are now at a critical juncture in planning how to meet this 
national need beyond this timeframe.
    In considering how to best fulfill our responsibilities for 
the U.S. Antarctic Program, NSF operates, in accord with U.S. 
policy and instructions contained in Presidential Memorandum 
6646, that every effort will be made to manage the program in a 
manner that maximizes cost-effectiveness and return on 
investment. Now, going forward, NSF must secure cost-effective 
and reliable icebreaking services for the resupply mission that 
is critical to supporting the broad goals of the U.S. Antarctic 
Program.
    For research in the Southern Ocean, NSF-supported 
scientists primarily rely on two leased vessels: the light 
icebreaker, Nathaniel B. Palmer; and the ice-reinforced 
Laurence M. Gould, both owned and operated by Edison Chouest 
Offshore of Louisiana. Over the past two decades, this 
combination of vessels fostered development of NSF's world-
class Southern Ocean research and ensured regular resupply and 
personnel movements for Palmer Station.
    In the Arctic, NSF exercises a range of options in order to 
expeditiously and cost effectively support cutting edge marine 
research. NSF funded the construction in Marinette, Wisconsin, 
of a highly science-capable vessel that can operate in ice up 
to about 3 feet thick. Sikuliaq, to be operated by the 
University of Alaska, will service the U.S. research community 
from her home port in Seward, Alaska, beginning in early 2015. 
This vessel will be used to study the vital ecosystems and 
ocean processes in the resource-rich waters of the Gulf of 
Alaska and Bering Sea, and within the Arctic Ocean, as ice 
conditions permit, or under escort of a more capable 
icebreaker.
    The only other U.S. Government-owned research icebreaker is 
the 15-year-old Coast Guard cutter, Healy. NSF and other 
agencies sponsor Arctic marine research on the Healy, and the 
vessel can routinely operate in ice of up to about 5 feet 
thick. Since operations began in 2001, the vessel has been 
tasked at capacity. NSF coordinates with the Coast Guard for 
scheduling and scientific technical support of this medium-duty 
icebreaker that can operate in the summer in the High Arctic.
    NSF also engages international partners in a variety of 
ways to facilitate activities of U.S. scientists. International 
engagement has proven to be a very cost-effective way to 
leverage our research assets, both in the Arctic and in 
Antarctica.
    In addition, NSF expects to continue to exploit 
technologies such as autonomous underwater vehicles, surface 
buoys, and moorings with innovative sensor systems, as these 
will increasingly provide cost-effective and wide-reaching 
Arctic and Southern Ocean marine observations.
    So, in closing, Mr. Chairman, sustaining U.S. scientific 
preeminence in the coming decades will continue to demand 
appropriate research and logistical support, including an 
efficacious, reliable, cost-effective blend of ice-capable 
research platforms and heavy icebreaking services.
    I thank you for your time and interest, and I will be happy 
to answer any questions.
    Mr. Hunter. Thank you, Doctor. Mr. Fogels is recognized.
    Mr. Fogels. Mr. Chairman, members of the committee, 
Congressman Young, my name is Ed Fogels, and I am the Deputy 
Commissioner of the Department of Natural Resources for the 
State of Alaska, in the administration of Governor Sean 
Parnell. I am honored to be here today.
    Alaska appreciates the Federal efforts to include us in the 
deliberations on the National Strategy for the Arctic Region, 
and the invitation of the Governor's cabinet to participate as 
part of the U.S. delegation at the Arctic Council meetings. It 
will be of utmost importance to ensure that the State is 
welcome as an active collaborative partner in these 
proceedings.
    The United States is only an Arctic nation because of 
Alaska. Arctic Alaska is mainly remote, presenting challenges 
that few non-Alaskans could comprehend. Everyday essentials are 
all dependent on the ability to transport people and supplies 
across vast roadless areas. As the committee envisions the 
future of Arctic transportation and infrastructure, the needs 
and challenges of Alaska's citizens must be kept at the 
forefront. The very health of our communities depends on us.
    We already have a strong framework of existing laws and 
regulations in place that guide resource management in the 
Arctic. My written testimony lists all these laws that we have 
that are specific to Alaska. We also have broad national laws, 
a long list that guide resource development. We must strive to 
use these laws and regulations more efficiently, and avoid the 
unnecessary, overly burdensome application we have seen in 
recent years.
    The State supports the expanded use of Alaska's existing 
military bases: Joint Pacific Alaska Range Complex; the Joint 
Base Elmendorf-Richardson; and Eielson Air Force Base. And we 
believe these bases and their assets are critical to security 
in the Pacific and the Arctic.
    We need more icebreakers. I really don't need to go into 
too much more detail, as we have been discussing icebreakers 
quite a bit today. But needless to say, we do support more 
icebreakers. The Coast Guard will also need expanded aviation 
assets in the U.S. Arctic. At this point, we believe that 
conflicting and unnecessary Federal policies, as well as 
limited financial means appear as obstacles. Fortunately, 
Alaska Native Corporations and the State are willing partners 
to expedite this expansion of these assets.
    Let me talk a little bit about mapping. Our Arctic needs 
better maps. We have mapped the surface of the planet Mars more 
accurately than America's Arctic. The State is leading the way 
in the effort to get better mapping, with excellent 
collaboration from Federal agencies, under the leadership of 
the Department of the Interior. And we are making good 
progress. The State has contributed $12 million, the Federal 
agencies $16 million, but $30 million is still needed to 
complete our Arctic base map of the State.
    We need better oil spill response infrastructure for both 
future development and for the increased shipping. The United 
States has highly prospective oil and gas basins in the Chukchi 
and Beaufort Seas that will provide for the necessary private-
sector investment in oil spill response systems.
    Let me talk a little bit about our communities. Communities 
in the Arctic are some of the--have some of the highest rates 
of poverty, suicide, domestic and sexual abuse, and substance 
abuse in the Nation. These social issues are clearly linked to 
the economic well-being of these communities. The Parnell 
administration has invested in clearing pathways of economic 
opportunity wherever possible to allow these communities to 
take control for a better future. Rather than developing 
redundant or overlapping regulations that hurt our efforts to 
help these communities, we need to focus on ways we can improve 
infrastructure for access, and streamline our regulatory 
process.
    An example of what we need to do is to develop an Arctic 
deepwater port. The State and the U.S. Army Corps of Engineers 
are working together, and we are already far along in the 
process of investigating possible deepwater port sites in 
Alaska. We would like to see expedited analysis, permitting, 
planning, that would make State port investments more 
economically feasible and certain.
    An example of what we don't need to do in the Arctic is to 
unnecessarily block our rural communities from developing 
access, like the Federal veto of a short stretch of road that 
would connect the community of King Cove to a decent airport. 
Many lives have been lost because of this community's inability 
to access this airport.
    In closing, I would just like to say that, for over half a 
century, the State of Alaska has been at the forefront of 
natural resource management, employing some of the world's most 
accomplished scientists and technical specialists. We are a 
model for responsible resource stewardship amongst Arctic 
nations within the United States. We don't need to increase the 
already overly complex regulatory burden. We need to look for 
ways to make the system more efficient. We need to work 
together to improve Arctic infrastructure. This is critical for 
not only the health of our communities, but for the security of 
the Nation.
    Thank you very much for the opportunity to testify, and I 
welcome any questions from the committee.
    Mr. Hunter. Thank you, sir.
    My first question is for NSF and NOAA. You have 
requirements that you have given to the Coast Guard for what 
you would like to see in an icebreaker. Are you contributing 
funds? You have a--Doctor, your funding for NSF is about $7.6 
billion a year. What is NOAA's funding?
    Captain Westerholm. For icebreaking?
    Mr. Hunter. Just overall. What is your budget? Four billion 
dollars?
    Captain Westerholm. About $4 billion.
    Mr. Hunter. $4 billion, $7.6 billion. The Coast Guard's 
acquisition budget, again, is just about $1.2 billion. So I am 
asking. Are you willing to put in money? And, if not, why are 
we here?
    Dr. Falkner. We do, in fact, reimburse the Coast Guard for 
the day rates of the services that we need.
    Mr. Hunter. Excuse me, ma'am. Let me clarify. Are you 
willing to put in money to build an icebreaker?
    Dr. Falkner. We need icebreaking services; we don't need a 
full-time, heavy icebreaker at our beck and call. And we do not 
have the resources to support such. So, as I mentioned in my 
testimony, the most cost-effective way for us to meet our needs 
is to contract for the time that we need. We have worked 
successfully with the Coast Guard for many years, going back to 
the inception of the program in the fifties. At this point in 
time, they have that one ancient asset that we are relying on.
    I think the answer to your question is that NSF is not 
resourced to build a heavy icebreaker for the Nation.
    Mr. Hunter. I didn't ask that. I asked if you were willing 
to contribute even a small amount. I guess the answer is no.
    Sir? Captain?
    Captain Westerholm. So my answer would be very similar in 
that, you know, we support the Coast Guard's icebreaking 
capability and their long-range plans, and we are working with 
them, but NOAA is also not resourced for the icebreaking 
mission.
    Mr. Hunter. OK. The answer is no. OK. So that is easy. I 
guess what that means, in the long run, is why should the Coast 
Guard care about your requirements if you are not willing to 
put any skin in the game. That is what I would make sure the 
Coast Guard does not do. Why should they have to spend more on 
their acquisitions for you, when you are not willing to pay to 
have it made?
    So let's go from that to the next thing I think Mr. Young 
is interested in, too. When it comes to leasing, Doctor, you 
lease from Chouest. Is that right? The two smaller----
    Dr. Falkner. Our research vessels are leased from Chouest. 
We work with the Military Sealift Command to lease our cargo 
vessel and our tanker.
    Mr. Hunter. Are they operated by civilian mariners?
    Dr. Falkner. They are. It is----
    Mr. Hunter. They are? And that actually----
    Dr. Falkner. Contractor-owned, contractor-operated right 
now. They can also do Government-owned, contractor-operated 
leases for us.
    Mr. Hunter. The Coast Guard has told us over and over again 
that that is impossible. It is impossible to have merchant 
marines in charge of one of their ships, when the ship's main 
goal is just icebreaking and research----
    Dr. Falkner. They provide icebreaking services with their 
breaker. They are not doing the resupply of the fuel, and they 
are not bringing in--the cargo in, as part of that mission. 
They are cutting the channel and the ice to McMurdo Station to 
allow those other vessels to come in.
    Mr. Hunter. But you have a model right now, where you are 
basically using those leased icebreakers.
    Dr. Falkner. They are not icebreakers.
    Mr. Hunter. Oh, they are not?
    Dr. Falkner. They are ice-reinforced vessels that require 
escort of a leased breaker----
    Mr. Hunter. The Nathaniel B. Palmer and--OK, got you. That 
is the Nathaniel B. Palmer and the--how do you say it?
    Dr. Falkner. Those are our research vessels. That is 
another set of vessels. What I was referring to before were our 
resupply mission vessels. And we, through the Military Sealift 
Command, contract each year for a tanker to bring down 
approximately 6 million gallons of fuel, and for a cargo vessel 
to bring down hundreds of containers of materials, and to 
return materials from the continent back.
    Mr. Garamendi. Somebody has to break the ice.
    Mr. Hunter. OK, so who actually--who breaks the ice? You 
don't contract with the icebreakers----
    Dr. Falkner. The Coast Guard broke the ice this year.
    Mr. Hunter. OK.
    Dr. Falkner. Prior to that we had 7 years where the Coast 
Guard did not have an asset capable of doing the job. And those 
7 years, we contracted with foreign breakers to handle that 
mission.
    Mr. Hunter. Got you. Where does Chouest come in? I am----
    Dr. Falkner. Chouest purpose-built two vessels for us. One 
is the icebreaker, the light--medium icebreaker that I referred 
to.
    Mr. Hunter. OK. So Chouest did build an icebreaker for you.
    Dr. Falkner. They did.
    Mr. Hunter. That they operate?
    Dr. Falkner. They operate, right.
    Mr. Hunter. OK.
    Dr. Falkner. They--we, through our prime contractor, 
contract with them to operate our research vessel.
    Mr. Hunter. OK. But it is an icebreaker, it is a small 
icebreaker.
    Dr. Falkner. It is.
    Mr. Hunter. OK. And they operate that all the time for you?
    Dr. Falkner. They do.
    Mr. Hunter. OK. Got you.
    Dr. Falkner. And we also have an ice-reinforced vessel, the 
Laurence M. Gould, which runs between Punta Arenas in Chile, to 
our station, Palmer Station, on the peninsula, and performs 
both the resupply and personnel movement for us, as well as 
does research. And it is a shallow draft vessel, which is 
necessary at the moment, to get into that station, given the 
constraints.
    Mr. Hunter. How are you able to lease the icebreaker if CBO 
scores it upfront in 1 year, the entire lease? Did you have to 
work through that?
    Dr. Falkner. All of these arrangements were made before the 
current requirements for scoring were put in place.
    Mr. Hunter. So it wasn't scored in 1 year, it was scored 
over the life of the lease, like real life is supposed to be.
    Dr. Falkner. Right. This was done quite a while ago now.
    Mr. Hunter. OK, got you. All right, Doctor, thank you very 
much.
    Mr. Garamendi?
    Mr. Garamendi. Very interesting set of questions, Mr. 
Chairman. In the earlier testimony, we heard discussions about 
the cost of a new icebreaker being significantly greater if 
there are research facilities on board, and it is designed for 
research. Let's explore that a little bit in the context of the 
chairman's questions about skin in the game, and participation.
    And the specific question is should we build--if we were to 
build a new heavy icebreaker, would NOAA and the National 
Science Foundation want to--I guess Alaska, also--want to have 
scientific capability on that icebreaker? Yes? No?
    Captain Westerholm. I will start this time, I guess. So I 
think the answer is, to the extent that it can be economically 
done.
    And I go back to that--I go back to the chairman's 
question, and I think I need to amplify the fact that, much 
like our survey vessels, much like our weather and sea ice 
forecasting, I mean, it benefits the Nation. The Coast Guard's 
icebreaking capability benefits the Nation.
    So to work ahead on a combined Federal requirement, I 
think, is a smarter plan than to stovepipe into a single set of 
missions. So I think----
    Mr. Garamendi. So the answer is basically, yes, you would 
want to have scientific research capabilities on the 
icebreaker.
    Captain Westerholm. Those that would support our missions, 
yes.
    Mr. Garamendi. National Science Foundation?
    Dr. Falkner. We have participated in the process of 
defining requirements that Vice Commandant Neffenger described 
earlier. It is NSF's position that we do not wish to see a 
heavy icebreaking capability compromised by adding on mission.
    We really do need heavy icebreaking in Antarctica. We can't 
get by with less than that capability.
    Mr. Garamendi. I am working towards a strategy on how we 
can find the money to build such an icebreaker. Timing issues 
are, obviously, in play here. But it seems to me that, in the 
budgets of the National Science Foundation, and NOAA, and the 
Coast Guard, and the Navy, and a few others, we could put 
together the money necessary to build this with each providing 
a specific amount of capital money for their specific mission 
requirements.
    So, NOAA, you need a--you want an icebreaker that has some 
capabilities on it. National Science Foundation says, ``Yes, 
but we don't want to pay for it, and therefore, it is not 
necessary.'' OK. But I think we can put together something 
here, if we put our minds to it. We are going to have to work 
across our own committees and across various budgets in order 
to do that. But, anyway, it is the strategy that you may want 
to comment on at another time.
    I want to go to the U.S. Navy and NOAA. We have the 
navigator of the Navy just sitting behind you. The Navy--The 
Navigator.
    [Laughter.]
    Mr. Garamendi. How do you coordinate with the Navy on what 
seems to be the same mission? That is, what is going on, how do 
navigation, tides, sea floor, all of those things, how does 
NOAA coordinate with the Navy on what apparently is the same 
type of mission?
    Captain Westerholm. So I would say it is not exactly the 
same mission, but we do coordinate well with the Navy. I mean, 
obviously, they need information, but not only mainly in the 
United States, but worldwide, for operations of defense. But 
certainly in the United States, some of the survey information 
that we have, some of the weather, sea ice information, we 
coordinate. We work together with them at the National Ice 
Center, as well as the Coast Guard.
    So, I would say that our mission is to, you know, chart the 
waters of the United States. And theirs is to defend the United 
States. But certainly we work closely with them----
    Mr. Garamendi. The navigator seems to have a mission, in 
addition to defending the United States, which is to what the 
heck is going on in the ocean. What is the weather? What is the 
tide?
    Captain Westerholm. Absolutely, in terms of national 
security----
    Mr. Garamendi. I hear not too much coordination from you.
    Captain Westerholm. I would probably disagree with that.
    Mr. Garamendi. And in written testimony, please tell me 
exactly how you do coordinate----
    Captain Westerholm. OK. Yes, sir.
    Mr. Garamendi. And since Admiral White is still here, 
answer the same question, please. You can do it in writing. We 
are running out of time here, so--I know you want to speak. You 
take that deep breath and want to jump in, and I like that. But 
you are not at the table at the moment. So, we really need to 
do that.
    Mr. Chairman, we have had some briefings that are in the 
classified area that I think are pertinent to this issue of 
both NOAA and the navigator's tasks. And I would like some 
opportunity to go back through that on the more classified side 
of it. So, we will do some thinking on that, and maybe have a 
conversation amongst ourselves on how we might be able to bring 
that kind of information into this issue.
    We have had a good discussion about the type of vessels 
that are needed, and the like. It seems to me--and I will just 
make this as my final 8 seconds here--that there is a 
increasing activity in the Arctic and the Antarctic, climate 
change being a principal piece of that, and causing it to 
happen. That is going to require icebreaking capability, more 
than we have had in the past. And, frankly, I think the problem 
is ours.
    We are hearing basically the agencies or the various 
Government organizations protecting their current budget turf, 
and saying it is somebody else's responsibility, when in fact 
they all share the responsibility, which means we are going to 
have to coordinate. We are going to have to find some way to 
pull together the necessary resources from multiple budgets and 
appropriations so that the task of providing sufficient 
icebreaking capability can be met.
    And so, perhaps from the oil revenues of Alaska we can find 
money. Perhaps from NOAA, NASA, and the Navy, and the rest, we 
can pull together the necessary money. With that, I will yield 
back.
    Mr. Hunter. Thank the gentleman. And the gentleman from 
Alaska is recognized.
    Mr. Young. I can assure the gentleman we----
    Mr. Hunter. Give us your money.
    Mr. Young. If we build an icebreaker, we are going to 
charge the hell out of you. I can tell you that right now.
    [Laughter.]
    Mr. Young. But this is a national issue, and I think 
everybody understands that.
    But I was interested, Doctor, in your comments. You lease--
it has worked well?
    Dr. Falkner. Our leases for our research----
    Mr. Young. Yes.
    Dr. Falkner [continuing]. Icebreakers? Yes.
    Mr. Young. It has worked well. See, because that is what I 
am saying, Mr. Chairman. It can work. It is this ingrown ``I 
have got to own it'' atmosphere. We have got a problem.
    Mr. Garamendi. Ask about the heavy icebreakers. Those are 
light icebreakers.
    Mr. Young. Well, they are the same thing. I mean they--we 
have two ships that I know built capable right now to break 
heavy ice by a private company that does this, American made. 
And that is my key, is American made. And I just think we can 
do it.
    I have to say one thing, Captain. Are you aware that NOAA 
has the authority now to build an icebreaker?
    Captain Westerholm. The----
    Mr. Young. A high-latitude survey vessel.
    Captain Westerholm. Correct.
    Mr. Young. Yes. And that was passed through--that is one 
thing wrong with being here too long--or everybody says that, 
``been here too long.'' We passed that law in 2001, and I don't 
think any time that your organization has asked for that money 
to build that type vessel----
    Captain Westerholm. And, to my knowledge, sir, we haven't. 
We have asked for ice-capable vessels which can operate in ice, 
but not icebreaking vessels.
    Mr. Young. OK. Well, I mean, I would be interested. And I 
am like the chairman and the gentleman from California that, 
you know, with everybody interested in this, I think we can 
solve this problem, instead of, you know, working together to 
get icebreaker capability in the Arctic.
    And I have to say, Ed, I was proud of you because you 
finished your testimony exactly on time. You know how rare that 
is in Congress? I mean very nearly that is about like a rare 
bird. I go back to my raven, as I was saying before.
    Mr. Garamendi. You still have 3 minutes.
    Mr. Young. Yes, I still have 3 minutes. The--it was brought 
up by the gentleman of California. What role is the State 
playing as far as infrastructure in the Arctic for this so-
called new boom that is going to occur?
    Mr. Fogels. Yes. Thank you, Congressman Young. I think we 
are participating in a number of ways. We are working with--
right now, with the Federal Government and with the Bering 
Straits Native Corporation to look at possibilities of 
developing a new deepwater Arctic port. We are looking at road 
infrastructure, both on the North Slope and to the Ambler 
Mining District, about the possibilities of perhaps increasing 
our road system in Alaska. I believe we are working with the 
Federal Government to try and improve our aviation facilities 
up in Barrow, which will be key to any--supporting any future 
Arctic activity.
    Mr. Young. How is the cooperation? You getting pushback 
from the Federal Government, or are they willing to do 
something besides talk? Or how is that working?
    Mr. Fogels. Congressman Young, on some fronts we are 
getting good cooperation. On other fronts we would like to see 
better cooperation. We are seeing some conflicting policies, 
Federal policies, as I mentioned in my remarks.
    I think that probably the biggest single conflict that I 
see is this new interest in the Arctic. Wow, we have to do 
something new in the Arctic. But then there is no funding to go 
along with it, as I think has been discussed in this committee, 
too. So----
    Mr. Young. And again, for the committee, we--you look at 
our State. You know, if you take all the land east of the 
Mississippi River to the Atlantic Ocean, from the tip of Maine 
to the tip of Florida, that is part of Alaska. And we are 
surrounded--the State is not as you envision a State, because 
all those States have got State borders. But we are a body of 
land on a map that has the State of Alaska scattered all over 
the State.
    And that is our biggest challenge, because the Federal 
Government has a tendency not to work with the State on these 
bodies of land, and we do have some on the Arctic. And that is 
something we have to realize, is this is a--you are State of 
California. But this is State of Alaska, scattered all over. 
And it is hard to put this together. And if we don't have 
cooperation from the Federal--cooperation, not dictation--then 
we have a real challenge. And that is our biggest challenge we 
have today.
    One last thing, mapping. Are you doing--are you contracting 
that out? Or how is that working?
    Captain Westerholm. We're employing three approaches to 
surveying in the Arctic. We award contracts to private sector 
surveying firms, which we have done in the Arctic the last 5 
years. We also conduct hydrographic surveys using NOAA's fleet. 
And lastly, we use data from the Coast Guard, Navy, and the 
academic community for reconnaissance surveying.
    So, to the extent that our trusted partners are able to 
collect data, and that NOAA is able to use it, we employ all 
three methods.
    Mr. Young. Now, have you mapped the waters from the Arctic 
north--I am talking about Barrow north--all that activity, as 
far as shoals, upheavals, mountains, depths? Have you done 
that?
    Captain Westerholm. So the short answer to that is no, 
there is a lot more to do. We have done some surveying in the 
High Arctic, such as at Delong Marine Terminal, where Red Dog 
Mine is located. In 2015, we plan to survey at Barrow, Point 
Hope, Kotzebue, the Bering Strait, and Port Clarence.
    NOAA surveys approximately 500 nautical square miles per 
year in the Arctic. There are about 40,000 square miles of 
priority surveying to be done up there. So it is going to take 
not only our contracting survey effort and our partners, but it 
will take some time as well.
    Mr. Young. OK.
    Mr. Hunter. Thank the gentleman. And let me get this right, 
too. It seems like NOAA and the NSF and Alaska, just with 
public-private partnerships, would be happy to do what you--you 
are able to do what you do without Government-created vessels, 
meaning you could piggyback on Shell or any of these other big 
energy companies that are going to be in the Arctic now, the 
way that they are in the central U.S. now. They are going to 
hit the Arctic in a big, big way probably over the next 10 to 
20 years, right?
    So, I guess all we are missing by not having the Government 
paid-for icebreakers is the Coast Guard enforcement capability 
of maritime law, and environmentalism, and that type of thing, 
and the Navy's ability to move freely up there. But I guess 
those aren't a big deal. So, if you didn't have those, you are 
happy. you could work off of private ships, right? I mean 
meaning you could lease them, you could piggyback on Shell or 
other energy companies that build their own icebreakers to use 
for themselves. You could do that if you had to, and keep doing 
what you are doing. Is that correct?
    Dr. Falkner. Provided the assets existed. They do not, at 
this point in time. What we are talking about is a national 
mission in Antarctica. NSF has a responsibility for 
coordinating it because, under the treaty system, an active and 
influential science presence is central.
    But we have had the pleasure of coordinating since 1957 the 
presence with our military partners, with Department of 
Defense. We work with the Air National Guard, we work with the 
Air Force, Military Sealift Command, and the Coast Guard. And 
we have had a long tradition of that type of cooperation for 
supporting that national mission.
    So, if you are talking about an alternative that doesn't 
yet exist, we would be making a change.
    Captain Westerholm. And I think that, for some of our 
missions that we fulfill with ice-capable vessels but not 
icebreaking capability, the answer is yes, we would still be 
doing some of those, and leasing those.
    I think there is some actual scientific work we do right on 
the sea ice edge. We do some of the oil pollution work in 
NOAA's Office of Response and Restoration, actually, with the 
Healy, as I mentioned, and Arctic Shield. So there are some 
missions that we do that benefit from having an icebreaking 
capability that is able to get into and out of areas to give us 
more information that we need for NOAA.
    And I would also mention--and I have earlier--that our sea 
ice and weather forecasts are enhanced by being able to get 
accurate data right at that edge of where the Healy can 
operate, where vessels with a lesser ice class could not.
    Dr. Falkner. We are capable of operating our own research 
vessels. We are cooperating with the Coast Guard. The Healy 
exists, and she has done a good job up until now, and she will 
exist, presumably, for the rest of her service life, and we 
would continue to cooperate. But if we look beyond Healy, we 
could imagine the science community meeting its needs 
collectively across Government in other ways. And we have been 
clear with the Coast Guard about that.
    Mr. Hunter. Thank you. Mr. Garamendi?
    Mr. Garamendi. I think we are about ready to wrap up, Mr. 
Chairman. I want to thank you for putting together a very, very 
important hearing, and the information that is coming forth.
    David whispered in my ear that at 500 nautical square miles 
per year, it is going to take some time to map the 950,000 
square miles in the Alaska region.
    Captain Westerholm. And the 40,000 priority square miles 
that we have already identified, correct.
    Mr. Garamendi. So we are going to be at that some time. The 
public-private partnerships that are inevitably going to have 
to take place in order to move that along are something that we 
should probably be encouraging in multiple ways here.
    Mr. Young raised a question about private heavy 
icebreakers, and I think there are several around. I was 
reminded there was one that operates off the east coast of 
Canada for some mining operation, where they are bringing 
mineral out of that area. So maybe that is something that may 
be available. We ought to explore that. It seems to be more--
and see what potential there is on private icebreakers, private 
heavy icebreakers, and whether that could be a stop-gap.
    I do think we need to have a heavy icebreaker for the U.S. 
Coast Guard, and I think we can find a way to do it if we pool 
together the resources from--excuse me, the money from multiple 
agencies that would benefit from such an icebreaker. And we 
might best be able to do that in the defense budget. We will 
talk about some strategies that that might--and the Healy might 
be a strategy that we talk about.
    So, all those out there in the defense industry and the 
defense budget that are protecting your budget, know that I am 
looking at it.
    [Laughter.]
    Mr. Garamendi. OK. Admiral White, we can talk offline about 
my question.
    That is it, keeping in mind Mr. Young, who went 1 minute 
and 10 seconds over his allotted time, I yield back.
    Mr. Hunter. I thank the ranking member. Thank you to the 
witnesses today for your testimony.
    And I think one thing, too. If we bring DOD and Coast Guard 
in on this, you are looking at a $1 billion heavy icebreaker. 
If you are looking at science research, and simply the ability 
to break ice, you are looking at $500 million for a heavy 
icebreaker. You double the cost by bringing in a defense-
capable ship, where you can actually run operations off of it.
    So I think that is a way to look at it, too, is, once 
again, if you are not going to pony up and put skin in the 
game, then why do you get to even give us your requirements? We 
don't really care, unless you want to put in some money.
    So with that----
    Mr. Garamendi. Mr. Chairman?
    Mr. Hunter. Yes, yes, please.
    Mr. Garamendi. You have said several times in this hearing 
that you don't care. In fact, you care deeply. Otherwise, you 
wouldn't be----
    Mr. Hunter. Here is what happens here. I have got 4 years 
to chair this subcommittee, just if everything stays as is. Don 
Young has been working the icebreaker issue for decades, 
literally. And it hasn't gone anywhere. And what I see as an 
unwillingness on behalf of the parts of Government that need 
this and actually will use it to really try to make it happen, 
just a lot of talk.
    And what is going to happen is we are not going to have a 
seat at the table when you have these Arctic countries up in 
the Arctic, doing what they are doing. We are going to say, 
``Hey, but we have a policy that says this,'' and they will 
say, ``But you don't have a Coast Guard within 200 miles of us 
here. So why do we really care?''
    And we are going to lose power and influence that way with 
our allies and with our enemies, and that is what is happening 
right now, is we are going to fall behind as other countries 
are ramping up, and we are going to look back in 10 years and 
go, ``Wow, it sure would have been great if we had a presence 
in the Arctic, because now we are way, way behind.'' But that 
is what I see happening here. And it would be nice to get 
something done within the next decade, instead of having the 
first meeting on whether we can even build one scheduled over 
the next 3 years. That is simply too slow, and it is 
bureaucratic and ineffective.
    So, anyway, so thank you all very much. And, with that, the 
subcommittee stands adjourned.

    [Whereupon, at 12:24 p.m., the subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED]     
 

</pre></body></html>
